<html>
<title> - INSIDE THE MIND OF ISIS: UNDERSTANDING ITS GOALS AND IDEOLOGY TO BETTER PROTECT THE HOMELAND</title>
<body><pre>[Senate Hearing 114-566]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-566

                        INSIDE THE MIND OF ISIS:
  UNDERSTANDING ITS GOALS AND IDEOLOGY TO BETTER PROTECT THE HOMELAND

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               __________

                            JANUARY 20, 2016

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                        U.S. GOVERNMENT PUBLISHING OFFICE
22-714 PDF                     WASHINGTON : 2017                        
_________________________________________________________________________________________       
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d2b5a2bd92b1a7a1a6bab7bea2fcb1bdbffc">[email&#160;protected]</a>  
       
       
       
       
       
       
       
       
       
       COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
             David S. Luckey, Director of Homeland Security
             Elizabeth McWhorter, Professional Staff Member
               Shad A. Thomas, U.S. Coast Guard Detailee
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
       Harlan C. Geer, Minority Senior Professional Staff Member
     Stephen R. Vina, Minority Chief Counsel for Homeland Security
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Peters...............................................    17
    Senator Portman..............................................    20
    Senator Heitkamp.............................................    23
    Senator Booker...............................................    25
    Senator Ernst................................................    27
    Senator Ayotte...............................................    30
Prepared statements:
    Senator Johnson..............................................    41
    Senator Carper...............................................    42

                                WITNESS
                      Wednesday, January 20, 2016

Bernard Haykel, D. Phil., Director, The Institute of 
  Transregional Studies, and Professor of Near Eastern Studies, 
  Princeton University...........................................     4
Jessica Stern, Ph.D., Research Professor, Pardee School for 
  Global Studies, Boston University..............................     6
Lorenzo Vidino, Ph.D., Director, Program on Extremism, Center for 
  Cyber and Homeland Security, George Washington University......     7
Hedieh Mirahmadi, President, World Organization for Resource 
  Development and Education......................................     9

                     Alphabetical List of Witnesses

Haykel, Bernard D.Phil.:
    Testimony....................................................     4
    Prepared statement...........................................    44
Mirahmadi, Hedieh:
    Testimony....................................................     9
    Prepared statement...........................................    76
Stern, Jessica, Ph.D.:
    Testimony....................................................     6
    Prepared statement...........................................    50
Vidino, Lorenzo Ph.D.:
    Testimony....................................................     7
    Prepared statement...........................................    64

                                APPENDIX

Responses to post-hearing questions for the Record from:
    Mr. Haykel...................................................    81
    Ms. Stern....................................................    83
    Mr. Vidino...................................................    85
    Ms. Mirahmadi................................................    87

 
                        INSIDE THE MIND OF ISIS:
  UNDERSTANDING ITS GOALS AND IDEOLOGY TO BETTER PROTECT THE HOMELAND

                              ----------                              


                      WEDNESDAY, JANUARY 20, 2016

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Ayotte, 
Ernst, Sasse, Carper, McCaskill, Tester, Heitkamp, Booker, and 
Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order.
    I want to welcome everybody and say good morning. I 
certainly want to thank the witnesses for taking the time to 
appear, for taking the time to really write, I think, some very 
thoughtful and revealing testimony.
    I would ask unanimous consent to enter my written opening 
statement in the record,\1\ and Senator Carper is generally 
pretty good about not objecting.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 41.
---------------------------------------------------------------------------
    Senator Carper. Oh, I will allow it.
    Chairman Johnson. But, without objection, so ordered.
    Let me just explain a little bit. Really, this hearing has 
been in the works for quite some time, and it was really 
spawned by somebody who could not be here because of scheduling 
conflicts of the Committee as well as himself. But Graeme Wood 
wrote, I thought, a very interesting article published in The 
Atlantic a number of months ago, ``Inside the Mind of ISIS.'' 
And I would say that it certainly caught this Senator, and I 
think an awful lot of people, policymakers in Washington, D.C., 
here, somewhat by surprise. It was pretty revealing. I have 
talked to enough people that really did not understand the 
importance of the territorial gains and holdings to create the 
caliphate and the chain of events which that set up.
    So, we started discussions, and although we do not have Mr. 
Wood here today, we have, I think--he is a reporter. We have 
the experts that I think he consulted with, in terms of writing 
his thoughtful article, and so I am really looking forward to 
the testimony here today.
    I just want to throw out one little statistic, and this 
comes from the National Consortium for the Study of Terrorism 
and Responses to Terrorism (START) from the State Department. 
The START Report, which they initially published in 2012. The 
progression and the growth of terrorism is stark, and did we 
ever get to the bottom of the differences in the numbers from 
2014? OK. Which should I use? OK, those are even worse.
    So from 2012, the number of attacks reported by the State 
Department in this report was 6,771. In 2014, the number of 
attacks had grown to 16,800 worldwide. That is 2.5 times the 
number of attacks just 2 years earlier.
    In terms of deaths, in 2012 there were 11,000 individuals 
killed in terrorist attacks. In 2014, there were 43,500. That 
is almost a fourfold increase in terrorist attacks.
    So the fact of the matter is, the risk, the threat of 
Islamic terror, from my standpoint, it is real. It is growing, 
and statistics prove it. And there is no way that we are going 
to be able to adequately address this unless we fully 
understand what motivates Islamic terrorists. This hearing is 
specifically about the Islamic State of Iraq and Syria (ISIS)--
but I think that we can talk about Islamic terrorists, in 
general, and explore that--and what is their ultimate goal. And 
I think that we will hear testimony that we have some 
contradictory goals as well, which makes it even more confusing 
in terms of how we deal with the issue.
    But, again, I just want to thank my witnesses, and with 
that I will turn it over to Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks. Thanks, Mr. Chairman. It is great 
to see all of you today. Thanks for your preparation, thanks 
for joining us, and for your willingness to testify and to 
respond to our questions. And I thank the Chairman for calling 
the hearing.
    One of the most important jobs of our government--in fact, 
State and Federal and local as well--is to make sure that our 
people are safe. That is what this Committee focuses on.
    As the Paris and San Bernardino terror attacks showed us, 
ISIS and ISIS-inspired attacks remain a major threat in this 
country. In fact, just last week, ISIS carried out attacks 
against our allies in Turkey and I believe in Indonesia.
    Today, we are going to look at ISIS's ideology and how it 
hopes to achieve its goals. One of ISIS's key strengths is the 
large number of recruits that they are able to pull in. And 
despite the heavy losses inflicted on ISIS by coalition forces 
in recent months, the number of ISIS fighters on the ground in 
Iraq and Syria remains pretty much the same thanks to a stream 
of new recruits flowing into the region on a regular basis.
    ISIS also appears to have a significant online army that 
grows daily, and these ``virtual'' soldiers may never set foot 
in the territory that ISIS controls, but they are waging an 
aggressive social media campaign that calls on people to do the 
group's bidding from thousands of miles away. These battlefield 
recruits and online supporters are attracted not only to ISIS's 
ideology, but to its image as well.
    And what is that image? Well, the image that ISIS would 
like to project is that of a winner. And even as it suffers 
serious defeats on the battlefield--I think the amount of land 
they control in Syria and Iraq is down by about 30 percent in 
recent months and continues to diminish. But even as they 
suffer serious defeats on the battlefield and lose key leaders, 
ISIS still attempts to project an image of indestructibility. 
And they do this through fictitious claims and propaganda on 
social media, and also by ignoring the truth about the progress 
that coalition forces are making. This winner message appeals 
to many young men who crave fame, fortune, love, and increased 
social standing.
    Just as troubling is the fact that ISIS has successfully 
advanced a twisted narrative that the United States is at war 
with Islam and that it is the duty of young Muslims to defend 
their religion by attacking the United States and our allies.
    Nothing could be further from the truth. That is not what 
we are about. We know that, and it is important that we convey 
that consistently throughout the world.
    This battle is not against a religion. This battle is 
against ISIS, plain and simple. ISIS is a cowardly group of 
murderers who kill Muslims, kill Jews, and kill Christians 
alike. They have no regard for human life. The estimated 30,000 
ISIS fighters have nothing to do with the 1.5 billion Muslim 
men and women who peacefully practice their religion around the 
world and in our communities.
    At the end of the day, this battle against ISIS is a war of 
words and ideas as much as it is a war of military power and 
action. That is why it is so important that we not only 
continue to crush ISIS on the battlefield, but also counter 
their hateful message.
    To this end, last month I introduced legislation that would 
create and authorize an office at the Department of Homeland 
Security (DHS) to counter the violent messages of ISIS and 
other terror groups. I welcome all of my colleagues to join me 
on this important piece of legislation. We will be talking 
about it during the course of this hearing further.
    This fight against ISIS, however, is not solely the 
responsibility of the Department of Homeland Security or any 
single Federal agency. All of us have a role to play, and we 
have an obligation to say something if we see something 
suspicious.
    And we all, especially those of us in public office, have a 
responsibility to be mindful of the words we use when we talk 
about Islam and the 1.5 billion Muslims around the world who 
practice their religion peacefully. They live in our States. 
They live in our neighborhoods, and they believe as fervently 
as we do in the Golden Rule: to treat other people the way that 
we want to be treated. We need to work to ensure that the 
rhetoric that we use does not play into the hands of ISIS to be 
used against us as a weapon.
    When we make careless comments about the nature of Islam or 
the need to keep Muslims out of the United States for political 
purposes, we feed ISIS's narrative that the United States is at 
war with Muslims.
    We have to be smarter than that. I think we are. Our 
country is better than that. We do not need to engage in 
demagoguery or run from our moral obligations in order to keep 
Americans safe.
    Let me close by just saying I look forward to learning more 
today about ISIS's ideology and tactics as well as what more we 
can do to address the root causes of this difficult challenge.
    With that, welcome and thank you.
    Chairman Johnson. Thank you, Senator Carper.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all rise and raise your right hand. 
Do you swear that the testimony you will give before this 
Committee today will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Haykel. I do.
    Ms. Stern. I do.
    Ms. Mirahmadi. I do.
    Mr. Vidino. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Dr. Bernard Haykel. Dr. Haykel is the 
professor of Near Eastern Studies and the Director of the 
Institute for Transregional Studies of the Contemporary Middle 
East, North Africa, and Central Asia at Princeton University. 
He is a historian of the Arabian Peninsula and a scholar of 
Islamic law and Islamic political movements. His research is 
concerned with political and social tensions that arise from 
questions about religious identity and authority, and he has 
been described as ``the foremost secular authority on the 
Islamic State's ideology.'' Dr. Haykel.

    TESTIMONY OF BERNARD HAYKEL, D.PHIL.,\1\ DIRECTOR, THE 
   INSTITUTE OF TRANSREGIONAL STUDIES, AND PROFESSOR OF NEAR 
             EASTERN STUDIES, PRINCETON UNIVERSITY

    Mr. Haykel. Thank you very much. It is a privilege and an 
honor to be here today. I have 5 minutes, so I will be quite 
telegraphic, and I really have three or four points to make.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Haykel appears in the Appendix on 
page 44.
---------------------------------------------------------------------------
    The first is that ISIS is a religious movement with set 
political goals. The principal goal is the empowerment of Sunni 
Muslims against a long list of enemies. The origins of ISIS lie 
in a complex set of factors, a very complex context in the 
Middle East. It involves a religious revival that started in 
the 1970s. You have a situation where the governments of this 
region are uniformly authoritarian, brutal, and have each 
eviscerated the social fabric as well as the civic societies 
that they dominate.
    You have relative economic deprivation. You have a massive 
youth bulge, with 60 percent of the population under the age of 
25. You have bad governance, as I have already mentioned. And 
you also have several wars.
    The most proximate war for ISIS's development is the war in 
Iraq and the U.S. invasion in 2003. And then some have even 
attributed climate change as a cause for this kind of 
radicalization.
    Now, this movement is extremely adept, as you have noted, 
at using social media to propagate its culture of victimization 
as well as the sanctification of violence. And they argue that 
violence is the only means to address the weaknesses of 
Muslims. They target a long list of enemies, principally 
Shiites, as well as other Sunnis who disagree with them, 
secular people, anyone who believes in democracy, or any of the 
modern ideologies of our age.
    They also have developed a culture, which is a fantasy, of 
what early Islam was like, which they are trying to reproduce. 
This is a culture that is extremely rich and taps into a very 
deep vein in the history of Islamic civilization and in the 
text of Islamic civilization.
    Now, I believe that there is no silver-bullet solution to 
ISIS. It is a symptom of deep structural problems in the 
region. Military defeat, while very welcome, would not address 
the problem of ISIS. And, moreover, the United States does not 
have the tools nor does the United States have the religious 
standing to speak authoritatively on what is or is not Islamic.
    I believe that ISIS today is, in fact, being defeated 
militarily. As you noted, they have lost 30 to 40 percent of 
their territory. But addressing the root causes that produce a 
phenomenon like ISIS is what is necessary, and this will take a 
generation to do. And most of the effort actually has to be 
done by people in the region of the Middle East and by Muslims 
throughout the world.
    I expect that as ISIS loses more and more territory and is 
defeated by groups like the Kurds or the Iraqi army, which is 
principally a Shiite-ruled and Shiite-dominated army, ISIS will 
become more desperate. And with desperation, we will see more 
lone-wolf and ISIS-directed attacks in the West. It is very 
important not to overreact to these attacks because it will 
play into ISIS's narrative.
    And I also think that lone-wolf attacks are extremely 
difficult to stop. We must definitely mobilize our own Muslim 
community against ISIS's ideology. They are the first and best 
line of defense against this movement.
    I also would like to underscore that ISIS should not be 
seen as an existential threat. If we speak of it as an 
existential threat, we also play into its narrative. So the 
solution, I think, is one that would require patience, but also 
hard-nosed realism and a strategy of not overreacting to its 
attacks on us and on others.
    Thank you very much.
    Chairman Johnson. Thank you, Dr. Haykel.
    Our next witness is Dr. Jessica Stern. Dr. Stern is a 
research professor at Boston University's Pardee School of 
Global Studies and an Advanced Academic Candidate at the 
Massachusetts Institute of Psychoanalysis. She was a member of 
Hoover Institution's Task Force on National Security and Law. 
She is a Fulbright Scholar and earned a Guggenheim Fellowship 
for her work on trauma and violence. And, finally, she is an 
expert on terrorism and co-authored the book ``ISIS: The State 
of Terror,'' and authored the book ``Terror in the Name of God: 
Why Religious Militants Kill,'' among other works. Dr. Stern.

   TESTIMONY OF JESSICA STERN, PH.D.,\1\ RESEARCH PROFESSOR, 
      PARDEE SCHOOL FOR GLOBAL STUDIES, BOSTON UNIVERSITY

    Ms. Stern. Chairman Johnson, Ranking Member Carper, and 
distinguished Members of the Committee, thank you so much for 
inviting me here. It is an honor to be here to speak to you 
about a topic I have been working on since the 1980s.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Stern appears in the Appendix on 
page 50.
---------------------------------------------------------------------------
    My dissertation adviser was Ash Carter, and he thought back 
then that it was weird that I was obsessed with terrorism, 
Iraq, and chemical weapons. He has admitted in public that he 
maybe was wrong at the time.
    When we think about what ISIS wants, I think there are two 
different aspects. One is: What does it want collectively? What 
does the group want? And here we see two contradictory goals. 
On the one hand, the group wants to run and spread its 
caliphate, not just in Iraq and Syria but in its so-called wil 
ayat, or provinces. One of the most important of these 
provinces is in Libya.
    At the same time, ISIS wants to polarize Muslim against 
Muslim, Muslim against non-Muslim, and goad us into sending 
ground forces to fight out a final battle in the town of Dabiq.
    These are obviously contradictory goals. I believe ISIS 
will continue to pursue both of those goals--trying to spread 
the caliphate and also trying to goad us into sending in ground 
forces to destroy the State.
    The second part of the question is: What do individual 
members think they will get from joining this terrible 
organization? Well, in the region, as Professor Haykel has been 
saying, they are looking for security. ISIS is capitalizing on 
poor governance and the disenfranchisement of Sunnis. 
Individuals are also seeking power, status, redemption, and the 
lure of living in what they call the only Sharia-based state, 
though we have to remember that many people living in ISIS-
controlled territory are trapped there. They are not remotely 
interested in this ideology.
    More importantly for us, in terms of our national security, 
is why Westerners are joining. Here I think that there is a 
desire to reinvent themselves, reinvent society, and to seek a 
new and clear identity. Interestingly, the work of Lorenzo 
Vidino has shown that 40 percent of those who have been 
arrested are converts. ISIS is a new religion. Everyone who 
joins it is a convert. But we are also seeing non-Muslims 
attracted to this way of becoming a hero and having an 
adventure.
    Our military response addresses the problem over there, but 
obviously it does not address the problem of homegrown 
recruits. Here we have to think seriously about how to get 
better at containing ISIS's ideology. I think everyone needs to 
be involved in this--the private sector and schools, for 
example. Ignorance about Islam is a vulnerability. Mothers are 
a key factor in fighting this problem. They imagine their kids 
are safe when they are inside on the Internet. We see this 
especially in refugee communities, where moms think, ``Great, 
my son is inside on the Internet. He is safe.'' We need to 
teach those moms that this is not true.
    It requires a global effort to find a new way for kids to 
feel that they can find an identity with dignity and honor.
    Finally, I want to say that there is a problem for scholars 
who want to study the mind of the terrorist. Institutional 
Review Boards (IRBs) make it very difficult for scholars to ask 
such questions as: Were you recruited by ISIS? Why did you 
think about joining? Why did you not join? I cannot ask those 
questions. If somebody says, ``Yes,'' referring to recruitment 
or joining, then I have to report them to the Department of 
Homeland Security, and then I am in trouble with the 
Institutional Review Board (IRB). This needs to be revised. At 
this point, IRBs, as applied to national security affairs, are 
a threat to national security.
    Chairman Johnson. Thank you, Dr. Stern.
    Our next witness is Dr. Lorenzo Vidino. Dr. Vidino is the 
Director of the Program on Extremism at George Washington 
University's Center for Cyber and Homeland Security. He 
specializes in Islamism and political violence in Europe and 
North America. The program he directs at George Washington 
recently published a report called ``ISIS in America: A 
Detailed Look at Legal Cases of Jihadism in the United 
States.'' Dr. Vidino.

TESTIMONY OF LORENZO G. VIDINO, PH.D.,\1\ DIRECTOR, PROGRAM ON 
   EXTREMISM, CENTER FOR CYBER AND HOMELAND SECURITY, GEORGE 
                     WASHINGTON UNIVERSITY

    Mr. Vidino. Thank you very much. Chairman Johnson, Ranking 
Member Carper, and distinguished Members of the Committee, it 
is a privilege to be speaking here in front of you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Vidino appears in the Appendix on 
page 64.
---------------------------------------------------------------------------
    While the vast majority of American Muslims clearly reject, 
as we heard, the Islamic State's narrative and tactics, the 
number of arrests and open investigations that we see 
throughout the country tell us that the current mobilization of 
Americans attracted to the Islamic State is unprecedented in 
size. It is also astonishingly diverse. It includes men and 
women, teenagers and men in their 40s, university students and 
petty criminals, people born into Islam and converts, and 
people born in America and recent immigrants. There is 
absolutely no such thing as a typical Islamic State sympathizer 
in America.
    Individuals with such diverse backgrounds are unlikely to 
be motivated by the same factors. Radicalization is a highly 
complex and individualized process, often shaped by a poorly 
understood mix of a variety of factors which are overlapping.
    One of them, which is cynically exploited by the propaganda 
of ISIS, is a deep sense of empathy for the suffering of the 
Syrian people, and that was true particularly at the beginning 
of the Syrian conflict. But by the time ISIS formally declared 
its caliphate in June 2014, the motivations of recruits appear 
to revolve more around fulfilling perceived religious 
obligations. Unquestionably, the main motivation today is that 
of living in a perfect Islamic society under the world's only 
authentic Islamic government, as its supporters believe the 
caliphate declared by Abu Bakr al-Baghdadi to be. Whether in 
online conversations or in interrogations with authorities 
following their arrest, the appeal of living in this utopian 
Islamic society is cited by the vast majority of American ISIS 
sympathizers.
    Indeed, despite the attention that it has received in the 
West, ISIS's main appeal is not so much in its sleek social 
media campaign. It is, rather, its territoriality, as you 
correctly said at the beginning. What matters is the message, 
the substance, not so much how the message is spread. So I 
think that there is a bit of a misguided focus on social media 
where in reality the issue is the core of the message.
    As is typical of an ideology that mixes politics and 
religion, the obligation to join and defend the caliphate spans 
both. Similarly, motivations professed by American jihadists 
often frame what could appear to be religious factors in 
political terms, and vice versa. Political grievances are seen 
through religious lenses. Similarly, their political solutions 
are framed as fulfillments of religious obligations.
    The political grievances of American ISIS sympathizers run 
the gamut. Some are of a global nature. But many American ISIS 
sympathizers are equally, if not more, interested in domestic 
events, such as the riots in Ferguson or the current debate 
about Islam in America. These events all represent, in the 
conspiratorial worldview they have adopted, proof of the evil 
nature of America and every other entity or idea that ISIS 
opposes.
    Religious and political motivations are also impossible to 
separate from personal ones, as Jessica was saying. A search 
for belonging, meaning, and identity appear to be crucial 
motivators for many Americans who embrace ISIS's ideology.
    Some individuals are particularly vulnerable, suffering 
from deep emotional issues or personality disorders. But in 
many other cases, the individuals who embrace ISIS's message 
are seemingly well adjusted. Rather, they are simply 
individuals on a personal quest.
    Moreover, most American ISIS sympathizers suffer from none 
of the socioeconomic and integration issues that are often, 
somewhat superficially, considered the main causes of 
radicalization of European Muslims, for example, therefore 
making the often adopted ``radicalization is caused by lack of 
integration'' mantra highly debatable. When looking for 
explanations of radicalization processes, I think it is 
arguable that psychology provides more answers than sociology.
    To conclude, ISIS is just the latest, and probably not the 
last, in a series of groups who have adopted what we would call 
``jihadist ideology.'' The defeat of ISIS, as despicable as 
ISIS is, will not stop the violence. Only the defeat of 
jihadist ideology will, so the problem is much larger than 
ISIS.
    Thank you very much for your attention, and I look forward 
to your questions.
    Chairman Johnson. Thank you, Dr. Vidino.
    Our final witness is Dr. Hedieh Mirahmadi. Dr. Mirahmadi is 
the President of the World Organization for Resource 
Development and Education (WORDE). This nonprofit educational 
organization counters violent extremist ideologies by promoting 
charitable, service-oriented alternatives. She developed ``A 
Community-Based Approach to Countering Radicalization: A 
Partnership for America,'' one of the first Muslim-led reports 
to address grassroots strategies to counter violent extremism 
and build resilient communities. She also has a degree in 
Islamic doctrine and has contributed to books on related 
topics. Dr. Mirahmadi.

TESTIMONY OF HEDIEH MIRAHMADI,\1\ PRESIDENT, WORLD ORGANIZATION 
             FOR RESOURCE DEVELOPMENT AND EDUCATION

    Ms. Mirahmadi. Thank you so much, Chairman Johnson, Ranking 
Member Carper, and distinguished Members of the Committee. 
Thank you for the honor of testifying before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Mirahmadi appears in the Appendix 
on page 76.
---------------------------------------------------------------------------
    Although the U.S. Government and our allies have spent 
millions of dollars in research to determine what is drawing 
Westerners to groups like ISIS, unfortunately we still do not 
have a terrorist profile. We actually cannot even prove one 
single factor to predict who would become a terrorist.
    But what we do know from the empirical research on 
convicted terrorists are some of the indicators that exist in 
many of those cases which may make an individual more 
vulnerable. We heard about several of those from both Jessica 
and Lorenzo. We also learned, as Lorenzo's report has told us, 
that over 40 percent of those arrested for ISIS-related crimes 
were Muslim converts, so that means that they grew up in a 
house that did not practice Islam. This tells us that no family 
is immune from the threat and that the solution will lie in a 
holistic approach.
    However, just because we cannot predict who will be a 
terrorist, it does not mean that we cannot or should not do 
anything or that what we do cannot be measured.
    In fact, we can design programs and clearly articulate a 
theory of change that connects the program activities with the 
risk factors that we are trying to reduce. If we measure those 
with traditional and innovative evaluation tools, we can show 
whether they reduced the vulnerabilities of program 
participants.
    At my organization, WORDE, that is what we did to create 
and adapt a community-led partnership with local government, 
known as the Montgomery County Model. I am pleased to say that 
after 2 years of rigorous scientific evaluation, funded by the 
National Institute of Justice, it is now the only evidence-
based Countering Violent Extremism (CVE) program in the 
country.
    It has a great potential to revolutionize community 
policing, allowing the community to lead and building 
relationships of trust and respect among diverse community 
members, rather than separating them off into silos that 
further feed distrust and isolation. This relationship among 
community members is more critical now than ever. Domestic 
terror attacks are creating fault lines in our society that 
will only lead to more violence if not repaired. The separation 
of Muslims from non-Muslims feeds into that bifurcated 
worldview of the terrorists who are saying, ``It is us versus 
them, the West against Islam.'' A comprehensive prevention 
agenda must include programs that prevent that divide, so that 
there is only an ``us'' against the terrorists.
    In response to the need for specialized individual 
interventions, we also provide counseling and direct services 
for those who may be at risk of radicalization, before they 
choose a path of violence. Ours is the first of its kind in the 
United States.
    Besides treating the psycho-social needs of clients, our 
team can also tackle the ideological risk factors by referring 
the individual to a mentor. It used to be that becoming a 
violent jihadist took years of religious indoctrination. The 
process was long because the Islam that they preached was so 
foreign to mainstream interpretations of the faith that they 
had to undo what Muslims have believed for centuries. And 
besides, their calls to suicide and killing of innocent 
civilians was, quite frankly, unappealing.
    Unfortunately, civil war in Syria, continued persecution of 
Sunnis in Iraq, and upheavals across the Middle East provided 
the perfect opportunity for the jihadist recruiters to 
reformulate the strategy. Constant depictions of torture and 
bombing of families in the region, motivated young Muslims 
across the world to go and join the ``humanitarian jihad'' and 
save Muslims who were dying at the hands of brutal dictators. 
Many of them were not even radicalized until they reached the 
battlefield. Suddenly, as if almost overnight, the terrorists 
had discovered the holy grail of recruitment: encourage people 
to come and build, not to come and die. That message would 
appeal to young and old alike, Muslim and non-Muslim. Anyone 
who saw the global powers as corrupt and oppressive would be 
welcome in this new utopia of misfits.
    As a result, taking someone off of the path now requires 
more than just a Muslim preacher. The process must include a 
culturally proficient, trained professional that can resolve 
the feelings of cultural homelessness and help the individual 
find a sense of belonging and purpose in our society.
    Since our program follows the protected health information 
guidelines of professionals, our client information is kept 
entirely outside the purview of law enforcement unless an 
individual is an ``imminent threat'' or a ``threat to national 
security.'' If we want to encourage more community groups to 
get involved or to enter this space, there needs to be more 
legal guidelines for practitioners, including how do we balance 
the privacy rights of our clients with national security 
interests.
    The government has created numerous violence prevention 
programs and alternatives to prison sentencing for all sorts of 
crimes. There is no reason why we cannot establish guidelines 
for extremist cases as well. Most importantly, communities need 
resources to create the multidisciplinary community-based 
prevention programs that can operate independently of law 
enforcement, as well as diversion programs that can actually 
treat radicalized individuals. It is impractical to think that 
we are going to arrest our way out of this problem. With 
thousands of individuals across the country that are vulnerable 
to radicalization, it is irresponsible of us not to create 
alternatives.
    Thank you.
    Chairman Johnson. Thank you, Dr. Mirahmadi.
    I will start with the questioning. I really do want to 
concentrate on trying to describe the full dimension of this 
problem. Senator Carper talked about the number of Muslims in 
the world. There are about 1.6 billion, according to Pew 
Research. Dr. Haykel, do you have any sense in terms of what 
percent of the Muslim population would identify with this 
extreme version of radical Islam, Islamic terrorism? Because 
one percent would be 16 million.
    Mr. Haykel. Right. Senator, you put your finger on it, 
which is that even a small percentage of people who identify 
with this movement would still be a very large number.
    I think, though, when it comes to identification, one has 
to make certain distinctions. So, for example, in Saudi Arabia, 
a country that I visit often, there are a number of people who 
do not actually share the Islamic State's ideology or goals--
they would never want to be ruled by the Islamic State--but 
nonetheless feel that they are the good guys out there fighting 
the good fight because they are fighting against Shiites, they 
are fighting against Americans, and so on.
    There are people in the Middle East, for instance, who 
would never want to be ruled by them and do not identify with 
them, but still see them as heroes.
    Chairman Johnson. And support them financially?
    Mr. Haykel. Private individuals may support them 
financially.
    Chairman Johnson. So, again, is one percent wildly too 
large? Again, I am just trying to get some sort of feel, 
because often we say, well, this is just a very small 
percentage, but a very small percentage could be a very large 
problem.
    Mr. Haykel. Right. So in terms of actual recruits, I think 
the numbers and estimates that I have seen vary from about 
30,000 to 100,000. A hundred thousand out of 1.5 billion is a 
very small----
    Chairman Johnson. But, again, that is recruits into ISIS, 
into the caliphate.
    Mr. Haykel. Yes, that is right, people who are fighting.
    Chairman Johnson. There are news reports that show that 
there are ISIS-affiliated branches in 30 different countries. 
We are seeing ISIS move into Afghanistan to take over the poppy 
fields.
    You were talking about how we do not want to overreact.
    Mr. Haykel. Right.
    Chairman Johnson. And, by the way, I realize ISIS is not 
going to come in and invade America and offer an existential 
threat here. I do not want to be putting ideas into the minds 
of terrorists. But, it does not take much of an imagination to 
understand that a coordinated homegrown terrorist effort could 
do unbelievable economic harm. Brussels did not have a 
terrorist attack, and yet it shut down after the Paris attack. 
So we have heard that we should adopt a strategy of strategic 
patience. OK, we do not want to overreact, but as long as ISIS 
maintains that territory, they are going to continue to inspire 
what could be incredibly damaging events--maybe not 
existential, but unbelievably damaging.
    So how do we deal with it? I mean, do we recognize that 
territory is the primary motivator? Come and build, as Dr. 
Mirahmadi was talking about? Come and build, build that utopian 
society. As long as that territory exists, we are going to be 
under threat. And, again, we will continue to be--even if we 
defeat ISIS, even if we deny them the territory, we have all 
these affiliates, all these branches of this extreme ideology 
around the world.
    So what is the full extent of this threat? I do not think 
strategic patience is working.
    Mr. Haykel. Well, military victory is the most significant 
contributor to recruitment. The fact that in 2014 they were 
able to conquer so much territory----
    Chairman Johnson. ISIS's military victory?
    Mr. Haykel. Correct. It made it seem like the reality was 
confirming that they were chosen by God to represent Muslims 
and to win in the name of Islam. So making them lose militarily 
is extremely important in drying up the fantasy that they are 
projecting and the appeal that they have to recruits. So it is 
very important to defeat them militarily.
    Chairman Johnson. But, again, would you be describing that 
as an overreaction? I want to go to Dr. Stern because you are 
talking about the contradictory goals, which are: grow this 
movement, grow the caliphate, and, at the same time, draw us in 
to defeat them, so that they end up with the final battle of 
Dabiq, or whatever. What is the name of that? Yes, Dabiq. Talk 
about that. Talk about that contradiction.
    Ms. Stern. Yes, there is a contradiction. I do not think 
that our policy should be dictated just because they want us to 
fight them in a final battle in Dabiq. I mean, I do think that 
we need to fight them. I think anything we can do to not feed 
into their fantasy that the West is at war with Islam is good. 
Therefore, special forces are better than big armies. Sunni 
Arab forces are much better than Western forces. But, I think 
it is important to point out that, as you say, this 
organization is now in many parts of the world. In Libya, it is 
very important. Afghanistan--it is also there. It is an 
ideology that is here as well.
    I am not sure that the victory narrative that I know you 
are quite interested in is so important. I think that, in a 
sense--why victory? Victory is important because of this sense 
of disenfranchisement, humiliation, and the sense that Islam 
has fallen behind the West. It has. We need to find a way for 
young Muslims and those who sympathize with them, including 
converts, to find another way to be heroes.
    Chairman Johnson. But rebuilding these societies that have 
existed for quite some time, these governments that are 
authoritarian and that offend our sensibility of freedom and 
democracy, that is a long-term project. Can we sit back and be 
strategically patient and allow this caliphate and the 
territory to exist and have that threat continue to grow? 
Because I think that it will continue to grow.
    One way that we can counteract that goal is to not let the 
final battle be in Dabiq. Let us take Dabiq first and let the 
final battle be someplace else. I am not being flippant here. 
We have to understand what they are trying to accomplish, but, 
again, I just do not think that we can be strategically 
patient. I think that we have to defeat them. I think that we 
have to deny that territory as our first step in a very long 
struggle. And let us face it, this struggle--let me be clear. 
We are not declaring war on Islamic terrorists. They declared 
war on us--I think, definitely starting in the early 1990s with 
the bombing of the USS Cole, and the attack in Saudi Arabia, 
and then the attempt to take down the Twin Towers initially in 
New York. If you are going to end a war, there are two ways of 
doing it: either both sides agree to end the war--and it is 
obvious to me that Islamic terrorists are not agreeing to end 
the war--or one side has to be defeated.
    And so, trying to make this simple, I sit there and go, 
well, this caliphate is something that is pretty attractive. 
People want to go there. They want to either get there 
physically or become adherents and, as they are being 
encouraged to, kill where they are.
    So, to me, that is the first step that we have to 
undertake, and the sooner, the better. I just do not think that 
we can be strategically patient.
    I will go to you, Dr. Vidino.
    Mr. Vidino. You are absolutely right. I think the reason 
for ISIS's success is its success, the fact that it has 
controlled territory. I think that if the Syrian conflict had 
gone in a different way for a variety reasons, and Jhabat al-
Nusra had taken over territory and created this State-like 
structure, Jhabat al-Nusra would be the big problem that we 
would be facing. I think ISIS was just better militarily, but 
there were a lot of circumstances there on the ground that led 
ISIS to be the one controlling territory. But it is that 
territoriality which is the main appeal for a lot of people, 
whether it is in the Middle East or here, in the West.
    I think that to some degree--I do not want to be overly 
negative, but it is almost too late because the State has been 
around for a year and a half now. So that idea, even if we were 
tomorrow to completely destroy what is the Islamic State, the 
idea or the fact that they created that society for a year and 
a half will linger for a long time, and you will find plenty of 
groups that will try to re-create that.
    Obviously, there are also, from a secret military and 
terrorism point of view, significant problems in keeping that 
structure there. There is more pressure on them now, and it 
makes it, to some degree, more difficult to expand their 
territory. They are losing territory. There is some pressure 
that does not allow them to plan attacks in the way that they 
would probably have been able to a few months ago, but now they 
are indeed planning them more. So, yes, they are being bombed. 
They are running from place to place, to some degree. But part 
of that strategy has been that they are also trying to carry 
out attacks, and I think Paris was obviously probably the first 
successful one, at least in the West, of an attack that was 
planned with some strategy. It was not just left to some lone 
individual to carry out. There was some strategy behind it, 
some planning, centralized planning involved.
    Clearly, I think that is one of the lessons from the 9/11 
Commission. The more you allow an organization, a terrorist 
organization--and ISIS is more than a terrorist organization, 
but the more that you allow them to plan and have a sanctuary, 
the more dangerous they are going to be.
    Chairman Johnson. They have revenue streams. They control 
research labs within universities. I will just quickly let Dr. 
Mirahmadi comment, and then I will turn it over to Senator 
Carper.
    Ms. Mirahmadi. Well, I definitely agree with the comments 
of my colleagues. I just want to add, though, that I think, 
long term and generationally, we are not going to bomb our way 
out of this problem. So even if we solve the military battles 
and we win against ISIS in terms of its controlling territory, 
ISIS is just a metastasized version of al-Qaeda and the groups 
that came before it.
    So I think that what we really need to bring to bear on 
this struggle is our other resources, both domestically and 
through foreign policy. For example, let us face it, our 
Western governments have been complicit or tacitly allowed a 
lot of the Gulf States to export this very virulent, intolerant 
ideology across the Muslim world and throughout Western 
countries. It has destroyed the cultural fabric of a lot of 
these countries. I mean, thousands and thousands of Pakistanis, 
Afghanis, Asians, and Africans have died trying to defeat it.
    So I think that it is very important that we use our 
diplomatic leverage with those countries to tell them to stop 
exporting that stuff and try fixing all the damage that they 
have caused so far.
    In addition, we should also bolster the efforts of 
countries like Egypt, who is now in a post-Islamist government 
who wants to use its might and its religious infrastructure to 
start exporting the opposite--start exporting a pluralistic 
interpretation of Islam. And that, quite frankly, is the core, 
it is the mainstream fundamental of Islam, so let us help them 
and empower them to be able to do this in a way that is 
authentic to the rest of the Muslim world.
    So I think that from a foreign policy perspective, we still 
have a lot of resources to bear on this problem that we need to 
use long term. And then domestically, as I mentioned, we need 
to be intervening and preventing the radicalization in the 
first place.
    Chairman Johnson. So, again, I understand that it is a 
multifaceted, generational problem, but just a quick answer. We 
have to deny them that territory, correct?
    Ms. Mirahmadi. Yes, absolutely.
    Chairman Johnson. The fact that the caliphate exists is a 
real problem.
    Ms. Mirahmadi. Absolutely. But, we still have all these 
other steps that we have to simultaneously----
    Chairman Johnson. I know. It is a nasty, big problem. I got 
it. OK, Senator Carper.
    Senator Carper. Again, our thanks to each of you for 
joining us today. Dr. Stern, thank you for writing a couple of 
really good books, really informative books, in one of them, 
``Terror in the Name of God,'' which I was struck by the way 
you went into--literally across the world, right into the heart 
of the centers of these violent folks, these violent groups, 
and talked to them. Why did they let you in? And why did they 
open up like that to you? It was amazing to me.
    Ms. Stern. Terrorists, in my experience, young people, 
really do want to talk, and that is one of the reasons that I 
am frustrated that at a university it is impossible for me to 
replicate that kind of work, even in prisons. It is very hard 
for us to get into prisons because of the IRB rules at our 
universities and also at the prisons. There is a wealth of 
information that we could be collecting.
    I also think that Saudi Arabia is actually, perhaps 
ironically, at 
the cutting edge in thinking about prevention and 
counterradicalization. They have been spreading this Wahhabi 
ideology everywhere where they think it might work.
    I just came back from Bosnia a couple of days ago. They 
have been very active in Bosnia. Bosnia is very vulnerable now. 
Why can't we--and you know a lot about this, Dr. Haykel--try to 
get them to help run a prevention and counterradicalization 
campaign? They did not mean to be spreading ISIS ideology. They 
meant to be spreading Wahhabi ideology.
    What do you think of that, Dr. Haykel?
    Senator Carper. Go ahead, Dr. Haykel. What do you think 
about that?
    Mr. Haykel. I think that the Saudis are extremely important 
in this fight, and I am always in favor of getting others to do 
the heavy lifting when we cannot do it or we should not be 
doing it. So they are definitely partners.
    As far as Wahhabism is concerned, this is just a very 
literalist interpretation of the faith, and it does come with 
money, but money is not enough to turn people to this version 
of the faith. I mean, I think that people turn to it because it 
responds to particular anxieties that modern people have--that 
modern Muslims have.
    So I think that just to blame Wahhabism for the rise of 
ISIS is wrong. But the Saudis would definitely be helpful in 
this regard.
    Senator Carper. We spend a fair amount of time on this 
Committee focusing on root causes, as opposed to symptoms of 
problems. I will use an example. Our border with Mexico, we 
spent about a quarter of a trillion dollars in the last 10 
years to fortify the border--walls, dirigibles, blimps, drones, 
and some 20,000 Border Patrol personnel. And that is all well 
and good, but we spent about one percent of that--not even one 
percent of that--addressing the root causes of emigration 
factors in Honduras, Guatemala, and El Salvador and the misery 
that those people live in and how we have contributed to that 
misery.
    The Chairman and I have been down--and some others on the 
Committee have been down--to actually visit those countries. I 
was down and met with the Presidents, all three of them, just 
last week and did see how they are doing. They swore in a new 
President in Guatemala.
    But we actually go to the source and say, ``What are you 
willing to do to turn around your countries? And what do we 
need to do?'' Because we are complicit in your misery, given 
our addiction to the drugs that travel through their countries.
    If we had the ability to ask--I believe in asking your 
customer--our Chairman comes out of the business community. You 
always want to ask your customer. In this case, if we are 
asking those that are being drawn to ISIS--whether the folks 
have actually gone to fight militarily or to set up these 
satellite operations--to ask them as our customer, ``Why you 
are doing this?'' and to better understand how to counter it, 
what would they likely say? Hedieh, would you lead that off, 
please? Ms. Mirahmadi, what would they say? Just very briefly.
    Ms. Mirahmadi. Well, I mean, to tell you the truth, I have 
tried to study this scientifically, so we tried to apply 
evaluation tools to determine what those root causes are, and I 
do not think that you can point to any one root cause. So I 
think that people have claimed that it is poverty, but we have 
debunked that theory because it cannot be just poverty because 
a lot of poor people do not become terrorists.
    People say that it is social alienation, or it is 
disenfranchisement in Western countries, or it is ideology. I 
think that we have come to the conclusion that it is a range of 
risk factors that overlap and can cause a variety of responses. 
There is no single factor that has been proven to cause 
terrorism or proven as a root cause.
    Senator Carper. OK.
    Ms. Mirahmadi. So it is a lot of things, and it is 
everything at once.
    Senator Carper. OK. Thank you. Mr. Vidino.
    Mr. Vidino. Unfortunately, I have to be as equally vague as 
Hedieh because the reality is that it is such a diverse--if we 
just look at the sample in the United States, the 80 
individuals who have been arrested for ISIS-related activities, 
the diversity is staggering, the profiles: 40 percent converts, 
different levels of knowledge of Islam, for example. We have 
people who convert literally on Google and overnight think they 
know everything about Islam and they think that it is their 
religious duty to go and join ISIS. But you also have people 
who have grown up in the faith, actually they are Hafiz, who 
have memorized the Koran, they are teachers themselves in 
Islamic schools in the States, and then try to join ISIS. So 
there is absolutely no one answer.
    The psychological profile of a lot of them is that they 
feel the need to help. It is obviously misguided, but there is, 
I think, a lot of evidence that they are people with a high 
sense of empathy, of compassion, and they feel that they are 
doing something good or that they are helping.
    Senator Carper. Thank you.
    Dr. Stern, you ask this question of a lot of people. ``Why 
do you do this?''
    Ms. Stern. Yes, I agree with my colleagues that there 
absolutely is no single root cause, no typical pathway. But we 
do know that the lone wolves--I mean, this is one thing that 
actually has come out of the literature. Lone wolves are much 
more likely to have mental illness. This is the thing we are 
most worried about now, lone wolves, here in the United States, 
not what we are worried about over there.
    We are finding in a study that I have been involved with at 
Children's Hospital in Boston that a lot of time on the 
Internet is a risk factor. But there are so many risk factors. 
Obviously, I spend a lot of time on the Internet doing my 
research, and it is not a risk factor for me to join ISIS.
    I think that we are not going to get very far in 
identifying exactly what the risk factors are, but that we can 
use what we learn about each individual who is thinking about 
it and who is sitting on the fence. How do we stop that person 
from joining? We need to understand each individual. And I feel 
very strongly about the efforts to talk to these kids one on 
one online before they join, and also to deploy formers, people 
who have actually joined and recognized that it is not a heroic 
existence and that joining ISIS was nothing like what they had 
imagined.
    There are hundreds of clerics all over the world, learned 
scholars, who have said, ``Well, this is not Islam''--that is 
not quite true. It is based on Islam. But, ``This is not the 
Islam that we believe in.'' They are boring. We need people who 
can communicate with these kids who find the idea of ISIS 
appealing.
    So we need to understand, with each individual, why they 
are drawn and to address that.
    Senator Carper. Thank you. My time is up. Let me just close 
with this thought. In an earlier existence, as a Governor, I 
was a founding Vice Chairman of something called the ``American 
Legacy Foundation,'' created out of the tobacco settlement, 50 
States and the tobacco industry, a lot of money flowed out of 
that to the States to offset the health care costs that States 
were incurring because of tobacco. One of the things that came 
out of it was $1 billion or more to set up a foundation called 
the ``American Legacy Foundation.'' The responsibility of the 
foundation was to create a truth campaign to convince young 
people who were thinking of smoking not to and young people who 
were already smoking to stop. And the message was developed not 
by us, but actually by young people, sort of like you are 
suggesting, and they worked with public relations folks who 
were really good at messaging and did a multimedia campaign. 
And if you think it might have worked, look at the rates of 
teen smoking from about 2001 until the end of that decade. 
Remarkable. But the key was, as you suggest, to go to other 
young people and let them help develop the message--this is why 
smoking is bad for you. This is why you do not want to do it--
and to be able to use that source of delivery to convey the 
message. And maybe that is part of what we need to do here.
    There is an entity within the Department of Homeland 
Security--it is called the ``Office of Community 
Partnerships''--which is designed, in part, to do that work, 
and we are trying to help connect them with the people in the 
American Legacy Foundation, who have done this truth campaign 
successfully and see if maybe this is a way to do it to address 
an even graver threat than tobacco.
    Thank you.
    Chairman Johnson. Thank you, Senator Carper. Senator 
Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and thank you to 
our panelists for what I think is very interesting testimony, 
and on something that is so important so that we get a better 
understanding of what we are dealing with from an ideological 
standpoint, from a messaging standpoint, and from the general 
narrative that we are hearing from ISIS as they are recruiting 
folks and moving forward with their terrorist activities.
    I think that it is important to bring this hearing to what 
is happening actually later today on the Senate floor. We are 
going to be dealing with an issue related to refugees. 
Certainly right now, we are dealing with a humanitarian crisis 
that we have not seen since the Second World War. We have folks 
who are fleeing ISIS. Dr. Haykel, I think that you mentioned 
that folks would not want to live under ISIS rule. We have 
people who have been persecuted, who live in fear, who live in 
terror, and who are fleeing that part of the world as fast as 
they can, both Syria and Iraq, looking for a safe haven.
    The United States, in my view, should welcome folks as 
refugees, those who are legitimate refugees, as part of our 
commitment to the world community. Yet there are people who are 
saying, ``No, we should shut down the refugee program, we 
should not accept any refugees in this country.''
    I would like to hear from each of the panelists. To what 
extent does the fact that there are certain folks in the United 
States who believe that we should shut down a refugee program 
that accepts people who are fleeing the terror and fleeing 
ISIS, play into ISIS's narrative? Or is that a good thing for 
us to be doing? Let us start with Dr. Haykel.
    Mr. Haykel. So the refugee crisis in the Middle East is 
largely the result of the civil wars and the governments 
themselves not keeping the State together. In the case of 
Syria, for instance, the refugees are largely produced by the 
Assad regime, a regime that is backed by both Russia and Iran. 
ISIS does not actually allow the people it rules over to leave 
the territory.
    The way in which the refugee issue plays out--and the only 
way that I have seen it was, most recently, in the way that Mr. 
Trump mentioned that Muslims should not be allowed into this 
country. That plays into the ISIS narrative because it 
basically confirms that the United States is an enemy of Islam. 
But more broadly, I do not think that ISIS is focused on the 
debate over refugees, in general.
    Senator Peters. Well, we heard from a previous panel, and 
folks were saying that refugees are somewhat of an 
embarrassment to ISIS because their narrative is that people 
should welcome the caliphate and people should want to come. So 
why does everyone want to leave the area and not come into 
their protective sphere, I should say?
    Mr. Haykel. Right, you are correct. ISIS calls for Muslims 
to give their oath of allegiance to the caliphate and then to 
come to the territory. Most of the people, though, who have 
left that region have left actually--for instance, Christians 
are a large percentage of the people who are leaving because 
they are persecuted, both by ISIS and other Islamists there; 
also moderates, liberals, all kinds of people who have left 
actually are people who would not fit into an ISIS-like world 
or a world in which Islamism dominates, whether it is ISIS or--
many of the other groups, for instance, in Syria are all 
Islamists. Most of the opposition is Islamist and intolerant of 
difference.
    But you are right. I think that those who have left ISIS 
territory and who describe what life is like under ISIS are 
extremely important in the propaganda war against ISIS because 
they come out and they describe it as a ``living hell.''
    Senator Peters. Any other panelists?
    Ms. Stern. I would say that I agree with you that we must 
accept refugees. I think that we must thoroughly investigate 
them. I think that we must recognize that ISIS will try to 
insert operatives into that refugee flow. I think that those 
are facts.
    At the same time, if we do not accept the refugees, that 
harms our position in the long run even more. It is not just 
ISIS, as my colleagues keep saying. This is an ideology. We can 
defeat ISIS. There will be another iteration of this jihadist 
ideology.
    Senator Peters. Dr. Vidino?
    Mr. Vidino. I agree. If we look, for example, at the 
numbers of individuals who were arrested in the U.S., only 
really a handful have a refugee background. We basically had 
two cases of people, very simply, one in Texas and one in 
California, with a refugee background out of people arrested 
for ISIS-related activities. There were a couple of other 
individuals of Bosnian and Somali backgrounds who have a 
refugee background, but their radicalization took place here in 
the States well after receiving asylum.
    I agree that it is, to some degree, an opportunity, but we 
are missing--if we are welcoming people, we should be telling 
these stories. They are an asset in undermining the ISIS 
narrative. I am not seeing that kind of message being put out 
in a good way, stories being told in the right way, being put 
on social media, whether in Arabic, whether in English and 
other languages, of people saying, ``I left ISIS because of 
this and this and that, and I am now here, and I am being 
treated humanely and everything.'' We are doing something nice. 
We are not then using that opportunity.
    Senator Peters. OK.
    Ms. Mirahmadi. I think that there is a corollary issue 
about the refugees as well, in that we have to make sure that 
we are providing the requisite services for them to adapt to 
life in the United States. We actually have a lot of clients 
who are refugees, and a lot of them are having a real difficult 
time adjusting to life in the United States because they do not 
speak the language, and they have suffered from years of post 
traumatic stress disorder from war and from losing family 
members. And so it is really important that the refugee 
resettlement services are doing their job and also referring 
them for psychiatric services or other kinds of therapeutic 
needs that they may have to make sure that when they do come 
here, they are acclimating and integrating into society and not 
leading to further problems down the road.
    Senator Peters. So, if I could summarize, you believe that 
the refugee program is an important aspect of U.S. policy, that 
it speaks to our values as Americans, and that we do welcome 
folks who are fleeing persecution and violence. Certainly, we 
have to make sure that we are screening those refugees and that 
we have a process to protect the homeland, which I believe very 
strongly in, that we have a very vigorous screening process. 
But, nevertheless, refugee program provides a very important 
element in pushing back against this extremism, not just with 
ISIS, but just generally. In fact, as all of you have said, 
defeating ISIS by itself is important, but that is not the end. 
There is still much more that we have to do, and having a 
credible, workable, and secure refugee program in the United 
States, and then using the stories that these refugees can tell 
us about what they are fleeing and why American values are so 
important, will be important to our effort. Is that accurate? 
Does anybody disagree?
    [No response.]
    Let the record reflect that no one disagrees with that. 
Thank you so much.
    Chairman Johnson. Thank you, Senator Peters.
    Let me just quickly repeat what I have said, which is that 
if we are going to accept, let us say, 10,000 refugees, which 
is just a pittance in terms of the numbers of refugees, why do 
we not establish criteria, allow women and children who have 
been properly vetted and who are relatives of Syrian American 
citizens who can financially support them? I mean, would that 
not make sense? So, hopefully, the administration would take 
that type of advice, and I do not think that we would have much 
of an issue here. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman. As tempting as it 
is to get into the refugee issue, I am going to try to stay 
away from it, except to say one thing. We have had testimony in 
this very hearing room. Seated right where you are, Dr. Stern, 
in fact, was the Director of the Federal Bureau of 
Investigations (FBI), who told us that there were gaps in 
intelligence that did not allow them to properly vet these 
refugees. And, of course, we should be helping the refugees, 
and as the Chairman has said, bringing 10,000 in, out of the 
roughly 4 million who have fled Syria, is a small drop in the 
bucket. A much larger role that the United States plays is 
supporting these refugees as they are trying to reestablish 
their lives in these refugee camps, and we should and can play 
a huge role there, and we do. American tax dollars are used. 
But we do need to protect the homeland as well, and I guess 
that is where my questioning would be.
    I do not disagree with the comments about taking on ISIS in 
the current caliphate that they are developing in Syria and 
Iraq. I think that we need to be more aggressive militarily, 
and I do think, to Professor Haykel's comments, that a military 
victory is an important victory, outside of the military 
aspect, because it shows that they are not invulnerable. It 
shows that they, in fact, can be defeated.
    I also believe that we have to protect the homeland in more 
effective ways, including better screening, and not just for 
refugees. That is, of course, a very small part of the people 
who come here. The visa programs, obviously we had this issue 
arise in San Bernardino, where a spousal visa was used to gain 
entry for one of the terrorists, and we did not do the proper 
vetting, including looking at her social media, which would 
have been the obvious thing to do. And, of course, people 
coming across our borders illegally, so protecting the homeland 
is critical.
    But to me, the most difficult part of this and the most 
important part, which is why this hearing is so important--and 
I thank the Chair and Ranking Member for holding it, and I 
thank our 
witnesses who have provided us with a lot of very valuable 
information--is dealing with the core issue. Some call it the 
``hearts and minds.'' I do not know if that is an appropriate 
way to describe it, but, essentially, how to keep this 
extremism from growing. And the jihadists who have converged in 
Syria come from all over the world, and we know that.
    We also know that attacks are occurring all over the world. 
We have a New York Times story from December. Some of you know 
this. I counted up the number of deaths from terrorism. This is 
not from military actions by ISIS. This is really from 
terrorism. It is over 1,500 people who have been killed in the 
last year through terrorist attacks, including some we know a 
lot about, like Paris and San Bernardino, and others we just do 
not talk about much. So how do we get at changing the hearts 
and minds?
    Professor Haykel, you talked about our first and best line 
of defense being the Muslim community. I could not agree with 
you more, and I think we do not spend enough time and effort on 
that. I was riding with police officers in Columbus, Ohio over 
the weekend, in the communities in Columbus that are Muslim 
communities, particularly the Somali community there. How do we 
encourage better communication and cooperation to the point 
that we heard earlier from Dr. Mirahmadi about separation 
versus, I would say, inclusion or social alienation versus, I 
would say, community involvement? How do you get that 
interaction? I think that is incredibly important, and we are 
not doing enough there, and it is about domestic terrorism and 
the fact that we do have, even with success overseas, a problem 
right here at home.
    Dr. Vidino talked about this interest of living in a 
utopian Islamic society. We need to have the counternarrative 
to that, obviously, much more effectively online and elsewhere. 
You talked about the core of the message being more important 
than the medium. In other words, we can complain about the fact 
that we do not do an effective job to counter it online, which 
I believe we do not, but also we have to get at the core 
message as well.
    And then Dr. Stern had a number of interesting comments. 
One that I thought was the most interesting was that we can 
defeat ISIS, it will just crop up elsewhere, essentially that 
was what you were saying. And it is almost like Whac-A-Mole. If 
we are successful in Syria--I look at, again, this New York 
Times story and the analysis that we have done. There are at 
least ten other countries where ISIS now has a presence, a huge 
one in Libya, for instance. And even beyond ISIS, of course, 
other groups will emerge because of the core. And then we also 
have the example from Dr. Mirahmadi, as an expert, saying we 
are not going to bomb our way out of this problem and talking 
about other ways to deal with it.
    So that is what I want to get at, if I could just get more 
ideas from you all. What should we be doing? You mentioned 
Egypt. There are also other Sunni countries that should be 
playing a more aggressive role in, as you say, exporting not 
Salafi jihadi Islam, but traditional Islam. What more can be 
done there? You mentioned, Dr. Stern, deploying former 
jihadists, using clerics more, and the counter narrative that 
we talked about. If each of you could give me a couple of 
examples of what we should be doing to address this third, and 
I think most difficult, problem that we face of how to get at 
the core and how we change those hearts and minds. Let us start 
with Dr. Mirahmadi and go to our right.
    Ms. Mirahmadi. So in addition to the things that we could 
do with Egypt, Morocco, and Indonesia--when I talk about 
helping them export, I meant materials, curriculum, books, and 
Imam training programs. So basically what the Wahhabis--what 
the Salafists did--was they exported such material, through 
this mechanism of taking over small centers, creating new 
centers of learning, starting at a very young age, and then 
establishing an Imam in these centers that would then basically 
change the ideology of the community around them. So we need to 
do the reverse. We need these countries to train Imams, create 
curriculums, and start creating that kind of groundswell around 
traditional pluralistic concepts of Islam. And I am not talking 
about making it up on the fly. This is part of 1,200 years of 
Islamic history that they can use.
    Senator Portman. We should use our leverage, the United 
States' diplomatic leverage----
    Ms. Mirahmadi. Diplomatic, exactly.
    Senator Portman [continuing]. Economic leverage, whatever 
leverage we have. That is an urgent need.
    Ms. Mirahmadi. Absolutely. And we are doing it. I know that 
our cooperation with the United Arab Emirates (UAE), hosting 
conferences, for example, Sheikh Bin Bayya is also doing a 
number of events that are cosponsored by the United States. So 
I know that we are doing it. For example, Al-Azhar University 
and its network has 400,000 students at any one time--400,000 
people. So that is a lot of people that could influence the way 
the ideological religious dynamic plays out in the next 5 to 10 
years.
    Senator Portman. Dr. Vidino.
    Mr. Vidino. Yes, generally speaking, I think that the 
United States has been somewhat reluctant to get into the 
religious debate, for obvious reasons: separation of church and 
State, and because it is a religion that we are not very 
familiar with. And I think that reluctance, to some degree, has 
to go, although we do not have to do it directly, but I think 
there needs to be more support for the right people--whether it 
is governments or, even better, civil society organizations 
abroad, and domestically, to work on the religious aspect of 
it. It is not purely a religious problem, clearly, we all 
agree, but there is a big religious component there.
    I said that maybe we sometimes overestimate the online 
aspect. Now I am going to reverse what I said. I think a lot of 
the message is out there. You mentioned Morocco, Jordan, and 
the UAE. A lot of these countries do put out a lot of very good 
products, very good reinterpretations of Islamic texts that 
undermine ISIS's interpretations. But they are not slick, they 
are not cool--they need to be marketed in the right way. You go 
to these conferences, and you have a lot of people with a lot 
of gray hair. You do not get to the right people. And often you 
reach those right people through social media. So it is a 
matter of repackaging, and I think that is a goal, to have a 
lot of--I do not know if there are a lot of debates, but 
conversations between the White House and Google and Facebook 
and so on. And I think that is one other aspect where we should 
have that conversation, how to repackage----
    Senator Portman. My time is expiring. I want to be 
considerate of our other colleagues here, so I would like for 
the record if you all, Dr. Haykel and Dr. Stern, would provide 
me with specific examples, in addition to any more that Dr. 
Vidino and Dr. Mirahmadi have.
    But one final question. The Office of Community Partnership 
has come before us from the Department of Homeland Security. 
Are they doing what you just said? Yes or no. Not so much.
    Mr. Vidino. Not so much.
    Senator Portman. OK. Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Portman. Senator 
Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman. I want to get to 
a story that was just released in the last probably 20 hours, 
which is that ISIS is cutting the salaries of their fighters in 
half. And I think that it was unclear how they were dealing 
with food stipends. I think they thought that the food stipends 
were fairly consistent, but not the stipends for children and 
for wives. And that has to be an indicator of some of the 
challenges that they are experiencing right now, and I want 
your reaction to kind of the financial aspects of this, how we 
can do a better job to cripple this organization from a 
financial standpoint. I think $26 oil is having a pretty 
dramatic effect. But beyond that, what does this reduction in 
salaries and assets mean for this organization, for this 
terrorist organization? And how can we further flame the 
financial challenges of ISIS? I would like everyone's 
reactions.
    Mr. Haykel. So I am of the view that ISIS is actually 
losing and has been actually for quite a few months now, not 
only territory, but also financially.
    One of the ways in which that can be furthered financially 
is to have better control over private financial flows out of 
the Persian Gulf, and here I am specifically talking about the 
countries of Kuwait, Qatar, the UAE, and Saudi Arabia.
    Senator Heitkamp. And I just will interrupt and say that we 
recently were on a trip to the Mideast, and this is exactly 
supported by what we heard there.
    Mr. Haykel. Yes, and they are definitely trying to do this. 
The problem is that many of the payments take the form of cash 
bags that are carried across the border. So getting the Turks 
on board--because that is often where the cash is carried 
through--is extremely important.
    But I think that would be very important, and then the way 
in which we are using special forces, in particular with the 
Kurds, is, I think, a model that should be replicated with 
other fighting groups on the ground. That is proving extremely 
effective as well.
    Senator Heitkamp. OK. Dr. Stern.
    Ms. Stern. I guess one question I would want to ask is: Are 
they cutting the salaries of propagandists? We know from a 
really good story in the Washington Post, that the 
propagandists are actually paid more than the fighters.
    Senator Heitkamp. There is an indication that it is across 
the board, that all salaries are being reduced, not just 
fighters' salaries. But, again, this is based on intel that we 
are receiving, that is being reported.
    Ms. Stern. Yes. So this is a very good sign. Stopping the 
sale of oil from ISIS to inside Syria, that is obviously pretty 
hard to accomplish. Also, they make money from so many 
different operations. They are selling amphetamines such as 
Captagon. They are managing to get those antiquities out. So 
this has to be a major effort to stop both the flow of foreign 
fighters in and the flow of goods out. I mean, I do not know 
what else to say. It is great. If this is happening, it is 
great.
    Mr. Vidino. I agree with everything that has been said, and 
I think that the emphasis on Turkey is there. It is all really 
about Turkey. Yes, the Gulf States in terms of private 
donations are very difficult, but probably the crucial role 
there is to be played by Turkey.
    I think what concerns me also, to some degree, is how many 
places ISIS has expanded to. Libya, it is probably also, from a 
financial point of view, particularly concerning because ISIS 
is starting to control parts of Libya, and this is also very 
crucial from an oil point of view and from an immigration point 
of view. It is sort of the end of a route that starts in Sub-
Saharan Africa, where all sorts of goods and refugees are 
imported to Libya, and it is a gateway to Europe.
    So there is a reason why ISIS is focusing on that part of 
Libya specifically, and why it is even telling its fighters not 
to go to Syria and Iraq any longer, but actually to shift to 
Libya. It is obviously because there is a political vacuum 
there. It is an opportunity. But it is a big financial 
opportunity as well.
    Senator Heitkamp. OK.
    Ms. Mirahmadi. I think that for some of the cases that we 
have seen here in the United States, financial incentives are 
important. So them learning about a reduction in financial 
incentives would hopefully reduce incentives to go. We had one 
case in particular, Mona Abu Salah, who talked about how he had 
food in his truck all of the time and that it was so great to 
have these resources in the caliphate. So I think that it is a 
very important issue.
    And what tools we have mentioned already: the Department of 
the Treasury's Office of Foreign Assets Control (OFAC), all of 
their financial control systems, designating more individuals 
to stop the flow of money, and reducing the price of oil. 
Anything we could do to cutoff their ability to provide 
financial incentives is important.
    Senator Heitkamp. I know that earlier we had this 
conversation about what are, in fact, the root causes, and I 
think that we could all argue that feeding someone's family and 
providing a salary in a war-torn area may, in fact, be a great 
incentive beyond the ideology and beyond the broader mission. 
And one of the things that has arisen in this discussion is, 
never mind the migration of refugees to this country, but once 
they are here, the need to provide social services so that we 
do not see radicalization. We could vet folks all we wanted, 
but once they come here, if they are alienated, if they feel 
isolated, and if they feel separated from the communities that 
they are living in, then that is another risk factor.
    And so I want you, I guess, Doctor, to expand. I thought it 
was an important point that I want to reemphasize here because 
I do not think that anyone here is talking about eliminating 
refugees. What we are talking about is vetting them 
appropriately on the front end, but you raise a very important 
point, which is that there are risk factors if we do not manage 
the refugee population, if we do not assist the refugee 
population once they are here.
    Ms. Mirahmadi. Absolutely. I mean, Lorenzo mentioned the 
fact that refugees were not radicalized before they came and 
the small number of cases. I mean, a case in point is 
Minnesota. So when you have a large resettlement effort----
    Senator Heitkamp. You are talking about the Somalis.
    Ms. Mirahmadi. Yes. The resettlement agencies tend to focus 
on particular communities and continue to put refugees in a 
single place, thinking that they are creating a circle of 
resources. But the problem is it also can ghettoize communities 
and not allow them to adjust and to integrate. So it is very 
important that there are social services provided and that 
there are also community service opportunities and other kinds 
of community-based programs that will help them to integrate in 
mainstream society, such as English language training and all 
sorts of job, vocational training, to make sure that once we do 
welcome refugees, which is a very important part of our 
society, that they do become productive, healthy, and 
integrated American citizens.
    Senator Heitkamp. Yes. I just wanted to reemphasize that 
point because I think that, as we are rightfully focused on 
what is the appropriate vetting process, we still have these 
challenges moving forward. And if we as a country do not have a 
more unified message, we risk our national security in not 
managing the refugee population that we have.
    Ms. Mirahmadi. Absolutely.
    Senator Heitkamp. Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Heitkamp. Senator 
Booker.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. Thank you very much, Mr. Chairman. Thank 
you, Ranking Member.
    I just want to say at the outset how much I appreciate you 
all being here, and your written testimony was really 
important. I am grateful for your presence here.
    I just want you to know that there are many tools to stop 
ISIS. I think that one of the first things we need to be doing 
as a country is to put forth an Authorization for Use of 
Military Force (AUMF) for this engagement. I think that it is 
actually an abdication of our authorities, as delineated by the 
Constitution, that we are engaging in such an important war 
without Congress at all doing its job and its constitutional 
duties. There are a lot of other things we need to do, from 
working with our allies, to making sure that we are 
coordinating efforts to destabilize and destroy ISIS. We need 
to craft a political solution, overall, to what is happen in 
Syria.
    I say all of this at the outset because I tend to be 
focused a lot on the issue of counter-ISIS messaging, and I 
want to say that that is just one tool in a toolbox. But it is 
one that I really do not believe we are doing that well.
    Ms. Stern, in your testimony you talked a lot, I think, 
about important information about the alienation and 
marginalization that can go on with young people--that they 
have had humiliating encounters with the police and that 
ignorance of Islam makes a youth more vulnerable to ISIS's 
ideologies. All of these things create an atmosphere with which 
people can be radicalized. And what I found interesting is an 
important point that I think needs to be understood. When it 
comes to those immediate threats in our Nation, you point 
specifically to the fact that it is the Western recruits that 
can so easily get back into this country, or never leave this 
country in the first place, who offer the most immediate 
threats to the safety and security of the United States of 
America. And so that is really where I want to drill down, 
because I am a little frustrated when it comes to our efforts 
at countermessaging.
    Now, you mentioned at the outset of your testimony, that 
our counter-ISIS strategy is lacking in our investment in 
counternarratives that appeal to specifically Millennial youth. 
To that end, you will be offering a Peer-2-Peer (P2P) course in 
your classroom next fall, which sounds like an interesting 
course. Perhaps you should hold it here in Washington. My staff 
has been involved in extensive conversations with Tony Sgro, 
the founder of the P2P program. So we are very focused on this, 
and I am working on legislation right now to give DHS the tools 
to widely implement the Peer-2-Peer course.
    So can you tell me, in your own words, what you believe are 
the benefits of the P2P program and why it is so critically 
needed?
    Ms. Stern. I think that we really have not taken this 
issue, as you say, seriously enough. If you think about what we 
did during the Cold War, when we realized that we had to fight 
the Soviet ideology, it involved the private sector and the 
government working together with covert and overt programs. We 
spent a lot of money. It led to Radio Free Europe/Radio Liberty 
(RFE/RL). It led to Voice of America. We are not taking this 
nearly as seriously as we did----
    Senator Booker. And, by the way, we still spend an 
extraordinary amount of money on those programs of the Cold War 
era.
    Ms. Stern. Right, because they are effective.
    Senator Booker. Well, I would question whether they were 
effective--and thank you very much--and we are spending 
hundreds and hundreds of millions of dollars of taxpayer money 
on things like Voice of America and not on the programs that 
you have such a specialty in.
    Ms. Stern. Right. So Tony Sgro's course--it is amazing. 
This is a guy who had found a way to help Honda design cars--
the car that a 19-year-old kid would want to buy, by having the 
youth get involved in the design of the car. Why not get youth 
involved in writing that counternarrative instead of a bunch of 
middle-aged people in the State Department or----
    Senator Booker. With no disrespect to middle-aged people. 
[Laughter.]
    Ms. Stern. Right. The program is now--it is in 30 
countries. I have just spoken with a university in Bosnia where 
it is very important because of the spread of ISIS there. The 
kids get to develop their counternarrative. Hopefully they find 
some hip-hop artist who had joined ISIS and quit. They know 
what is attractive to young people. I think it is really 
important that this be offered not just in universities, but 
also in high schools. And as it happens, the Saudis are now 
going to try to offer this program in high schools. I would 
like to see that happen all over the world. I think it is so 
inexpensive compared with the money we spend on the military 
aspect of fighting ISIS. We can afford to experiment and see 
what works. So I am a big proponent of EdVentures and Peer-2-
Peer----
    Senator Booker. And I appreciate that, and just to 
highlight the urgency here--and I really want to turn to 
Professor Haykel, not only because I want to hear your 
testimony, but because you are from New Jersey and I should 
highlight you, sir. [Laughter.]
    But, look, one of the factors in your explanation of the 
multifaceted appeal of the Islamic State is the massive youth 
bulge. We are talking about a boom of Millennials within this 
region. Sixty percent of the population across the Arab world 
is under the age of 30. Think about that. Seventy-five percent 
of the population in Mali, for example--excuse me. The median 
age is 15.9. In Tunisia, youth unemployment among graduates is 
around thirty percent. So you have, in all of these countries, 
massive youth populations, and youth are making up the majority 
of the population in these countries where we are currently 
facing ISIS or its affiliates. How should this demographic 
reality, of these Millennials, as we were just talking about, 
really affect the way that we think about Syria, Iraq, and even 
Turkey and other countries in the region, to tune our strategy 
in terms of countermessaging?
    Mr. Haykel. Thank you. I have been involved in seeing how 
ISIS recruits the Millennials. So, for instance, ISIS has 
created its own version of Grand Theft Auto, the video game. 
ISIS goes into where these young people are involved in 
discussions online and then lures them with its own version of 
these video games. So they are very sophisticated in basically 
using our culture, things that we have produced, and then 
distorting them for their purposes. So it is very important, I 
think, to focus on this.
    And the other point is that these Millennials that you are 
talking about are actually, today, extremely connected through 
the Internet to the world, largely because in many countries of 
the Middle East, there is no other way to communicate and there 
is no other way to have a discussion, an open discussion.
    So I think that one has to think about these young people, 
and especially the cultural products of the United States and 
how they are being contorted and distorted to attract these 
young people to extremism and radicalism.
    Senator Booker. Thank you. So, in other words, we have a 
region of the globe that is a Millennial region, and we need to 
attune sort of the Baby Boomer and Gen X efforts to really 
focus in on language that they understand and that they are 
engaging in.
    Mr. Haykel. That is absolutely correct.
    Senator Booker. Thank you, sir.
    Chairman Johnson. Thank you, Senator Booker.
    Just because you brought up AUMF--I am on the Senate 
Foreign Relations Committee--let me give you my insight on 
that. I would say that as soon as this administration were to 
present and we were to have Democratic support for an 
Authorization for Use of Military Force that shows the full 
commitment of this Nation and this administration to accomplish 
the goal of defeating ISIS--it does not limit this 
administration, or the successor administration, in any way, 
shape, or form. You have that authorization, but we have not 
seen that yet. That is why we do not have one. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman, and thank you to 
our witnesses today. It is very good to have this discussion, 
very relevant with everything that we have going on today.
    Dr. Vidino, if I could start with you, please, in December 
your organization published a report, which I think was very 
well titled, ``ISIS in America: From Retweets to Raqqa.'' And 
one of the report's conclusions suggests that intervention is 
an effective alternative to arrest--and I would like to hear a 
little bit more about that--to really help sway some of those 
individuals from the path of radicalization. So you do note a 
potential number of issues with this intervention, including 
the lack of legal guidance and a set of best practices. So if 
you could expound a little bit on that, please, I would love to 
hear more about that.
    Mr. Vidino. Of course. Thank you very much for your 
question. What we advocate is a system--I think that we all 
understand, as we said earlier on the panel, that we cannot 
arrest our way out of this problem. And the FBI were the first 
ones to say this, that the numbers are too big. And I think in 
many cases, you have people who are minors or people anyways 
who have not crossed a certain threshold. So I think there 
should be at least the choice--the authorities should have the 
ability to, in some cases, of course, monitor, investigate, 
arrest, and go the hard traditional way, but there should be, 
in certain cases, an ability to have a system in place where 
some kind of mentoring, some kind of intervention is carried 
out.
    Of course, there are different ways of doing this. You have 
a lot of European countries that have been experimenting with 
this with mixed results, but I think that they have gotten much 
better over the last 3 or 4 years in how to do that, whether it 
is law enforcement directly that does it or, as I would 
personally advocate, the lighter the footprint of government, 
the better, so it is civil society that does that, of course, 
with some kind of guidelines that come from the government, 
some kind of clear legal guidelines aboout what can be done 
when the intervention transcends into criminal investigation 
and so on. But things need to be clarified from the beginning. 
It also has to be very clear in the message that is sent to the 
community, because there has been a lot of controversy and a 
lot of pushback from some quarters in the Muslim community that 
Common Vulnerabilities and Exporsures (CVE) interventions are 
used as ways to spy on communities and so on. I think that it 
should be done in a very clear way, explaining that these are 
ways, not to criminalize people, but actually to help people 
not criminalize themselves. This is a way out for people, 
before they cross a certain line and do something that is 
criminally relevant, and also something that damages their own 
lives.
    So finding the right people, finding the right partners, 
whether it is an Imam, people from a religious background, or 
in some cases they do not have to be, but people that can find 
a way to gain the trust of these young people who are 
radicalizing and sway them. And, of course, it is not easy. It 
does not work all of the time. But the European experience 
tells us that it works--for example, in the U.K., they talk 
about a sixty to seventy percent success rate. That is huge. 
That takes away a big, big chunk of work from what the FBI has 
to do. Their resources are spread thin. If we eliminate sixty 
to seventy percent of people who are potentially dangerous, but 
just starting to flirt with the ideology, and we sway them, not 
only are we doing something good for these individuals, first 
of all, but we are also really helping law enforcement to 
focus, to zero in on the really bad guys.
    So it needs to be done in the right way, and I think there 
should be some kind of legislative intervention there in 
setting how the rules of the game should be. And, of course, 
there should be participation with the law enforcement 
community in that, and then getting communities involved.
    Senator Ernst. Do you think that we would have good 
participation from non-governmental agencies here in the United 
States, organizations that would step forward and be able to 
fill that role? And, Ms. Mirahmadi, I would love to hear your 
take on that as well, please.
    Mr. Vidino. Yes, I think, first of all, one should have 
civil society involved in general, and I think Hedieh can give 
a practical example of how that is done. But I think that the 
local level is also crucial when it comes to government. I 
think that it has to be done at the county level and at the 
State level. These are the people who, more than the FBI, 
really have the pulse of the community. And to some degree, 
they are seen not as the bad guys, as the FBI would be. 
Obviously, there is a role for the FBI for sure there, but I 
think that it is local law enforcement, health departments, and 
a variety of entities at the local level that are cricial in 
getting the communities to be involved.
    I think that we have seen a bit of pushback from 
communities, but I think that it comes from some self-appointed 
leaders of the community. So there are big parts of the 
community that do want to help, do want to work with 
government, because they understand that the problem is 
targeting their own children. So one has to be really clear 
about how diverse the community is and who they will find as 
partners.
    Senator Ernst. OK. Ms. Mirahmadi, if you would, please.
    Ms. Mirahmadi. I absolutely agree with what Lorenzo 
mentioned in terms of legal guidelines. So we do run one of the 
first intervention/prevention programs on violent extremism in 
the country, and it is difficult, risky, and complicated, but 
that does not mean that we cannot navigate our way through it. 
We are able to operate completely outside of the purview of law 
enforcement until there is an imminent threat or some national 
security risk. So there is a way to develop a program that 
protects client health information, and then when it goes to a 
case of radicalization, or when the FBI or the police 
department would want to refer a case, you could follow the 
rules of informed consent and balance those interests with our 
national security concerns.
    And I would just like to say that as long as the FBI 
continues to have jurisdiction on those cases, as unpopular as 
it may be to some people, they need to be part of that process, 
because, at the end of the road, they will be involved if those 
cases go south. So it is important to have a balance between 
the community being able to stay within its purview and protect 
the client information and then still have a relationship with 
the Bureau when it is something beyond their control.
    Senator Ernst. OK. Is this reflective of what the Europeans 
have done? What are the greatest takeaways that we can learn 
from what their governments have done?
    Ms. Mirahmadi. As Lorenzo mentioned, there are many 
different kinds of models. So in Europe, a lot of them are led 
by government channels in the U.K. In my opinion, you should do 
both. We can have community-led programs and rectify 
inconsistencies in the process. In other words, if you do not 
follow a systematic approach, some dangerous people may be 
missed. For some, there is this hesitation to deal with law 
enforcement too closely so that they can do only prevention 
work.
    So I think that you can set up diversion programs, like we 
do in a lot of other violence prevention programs, that are in 
partnership 
with law enforcement. And then separately you could have 
prevention/intervention programs that are largely community 
run.
    Senator Ernst. OK, great. Wonderful. Well, I thank you very 
much for your input. It is something that we really do need to 
tackle.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Ernst. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Mr. Chairman.
    I wanted to follow up on your report, Dr. Vidino, and ask 
you about the aspect of it where you noted that there is a 
largely untapped opportunity to leverage American ISIS recruits 
that have become disillusioned with the cause, and that these 
individuals have dropped out for a variety of reasons, whether 
experiencing the brutality of life under ISIS firsthand or 
finding a more positive outlet for the quest that led them to 
ISIS in the first place. You noted that we would do well to 
provide avenues for their stories to be amplified to help 
dissuade would-be recruits.
    Could you explain that to us and just let us know, first of 
all, how many Americans do you think that would constitute? I 
am just curious. And, what are the reasons they have become 
disillusioned? And how could we use them to help us get at this 
issue?
    And then I am going to ask a dual question to all of you 
after that. How do we get the message out as to what life is 
like for women in ISIS? Because as I understand it, the way 
that they are portraying the role of women in how they are 
marketing it is quite different than the reality of being 
engaged with ISIS or obviously traveling to Iraq and Syria and 
joining up with the caliphate if you are a woman.
    So, Dr. Vidino, I am going to have you address the American 
issue, and then if people could jump in on women and how ISIS 
treats women, I would appreciate it.
    Mr. Vidino. OK. Thank you for your question, Senator. What 
we advocate--and, again, this is an idea that has been floating 
around in the Department of Justice (DOJ) and in other 
quarters--is the idea that, as we said earlier, there is a very 
powerful message that can be sent by people who are part of 
ISIS or, in general, the jihadist movement. I think that you 
are right that we are probably going to have some difficulties 
in finding a lot of Americans who have left ISIS. It is not 
really public information, but I would argue that there 
probably are some very isolated cases that you would find. We 
can definitely find more people who were al-Qaeda-linked, or 
anyway, jihadists. We have a whole wave of people who are 
coming out of prison now. These are the people who were sort of 
arrested post-9/11, sort of the second-tier guys, the people 
who did not go to fight, mostly the people who were convicted 
for material support and got between 10 and 15 years, and who 
are coming out of prison now.
    There is really no de-radicalization program in the U.S. 
prison system, but some of these people are coming out de-
radicalized on their own, reformed. That is a very powerful 
message. We go back to--it is a message, but it is also the 
messenger. The legitimacy that somebody that has maybe served 
time in jail, maybe even went to Afghanistan or to Yemen, and 
can come back and say, ``Listen, the stories that we were fed 
are lies. The reality is completely different,'' that messenger 
is so much more powerful than the countless books the four of 
us can write here.
    So we argue that in some cases, whether it is people coming 
out of prison, whether it is people who, in one way or the 
other, are living in the States, or, even better in my opinion, 
if we have people coming back from ISIS--obviously if they have 
committed crimes, nobody argues that participation should be a 
way to get away with not being prosecuted and not being held 
responsible for what they did. But since we know that there are 
sort of borderline cases, with the proper considerations, I 
think that there is such a powerful countermessaging tool there 
that should be used. It is sort of a gutsy, alternative way of 
dealing with the problem, but I think that we do need new 
solutions and I think that this is an important one. Definitely 
we have some of those that come from the ``old guard,'' let us 
put it like that, the al-Qaeda people who were active 4 or 5 
years ago, and I think that is very powerful.
    Senator Ayotte. Who would like to go first in addressing 
how they are recruiting women, the reality versus--how we get 
that message out to women in particular?
    Ms. Mirahmadi. I think that as Lorenzo and Dr. Stern have 
both brought up, the issue of using formers could be a very 
powerful tool. But I would also like to posit that oftentimes a 
lot of 
these--the would-be recruits are very skeptical of messages 
that come from a former, because it is what they consider to be 
propaganda against the caliphate. So it would also be valuable 
to think of not only what we are against, but also what we 
actually stand for. So not just telling girls why they should 
not go, but also telling them why they should stay. And I think 
that it requires--whether it is a Muslim mentor or some other 
kind of social network that gives them a motivation for saying, 
``I am Muslim, but I am also British or I am also American, and 
this is my country. I feel part of it and I have a faith that 
provides me with the spiritual and the intellectual needs that 
I have.'' I think that is a much more complicated question, but 
it is definitely something that we need to get to, because we 
need a positive message not just a countermessage.
    Senator Ayotte. Am I missing something? And maybe I am 
wrong about this, but I thought that they were misrepresenting 
to women what the reality was. And maybe I am wrong about that. 
I just would like to understand----
    Ms. Mirahmadi. No, what I mean is that they do not believe 
it when we say women are mistreated.
    Senator Ayotte. OK. I understand.
    Ms. Mirahmadi. So when we say, ``They treat you terribly. 
They make you wear a burqa. You do not ever get to go out. They 
do not feed you.'' Their response is, ``You are lying. You are 
making that up.''
    Senator Ayotte. Oh, they think that we are misrepresenting 
it.
    Ms. Mirahmadi. Yes.
    Senator Ayotte. Professor.
    Ms. Stern. Here I think it is important to highlight the 
work of a woman, Humera Khan, who is working one-on-one with 
young people, and particularly young women, who believe this 
narrative. I think that this kind of work really needs to be 
supported. Of course they are lying. They are saying, ``You get 
to be a jihadi wife.'' They do not say, ``You get to be a 
jihadi wife one month with one guy and one month with the 
next--or maybe one day.''
    Yes, we need to get those stories out, but I think that the 
one-on-one approach that Humera Khan is involved in is very 
useful. That is what I will say.
    Mr. Haykel. The recruitment to ISIS provides meaning and 
structure to individuals. I do not think that it is gendered. I 
think that women are as attracted as men to the meaning and 
structure that ISIS provides when they are recruited. And ISIS, 
itself, is extremely adept in its propaganda and using women in 
its propaganda. So you see this in their online magazines, but 
also, for instance, one of their principal ideologues today, 
one of their principal thinkers who is writing poetry and 
treatises on Islam, is a woman. Her name is Ahlam al-Nasr. And 
they have a brigade of female morality police that roams the 
streets.
    So, the way that they present themselves to the outside 
world and to potential recruits is that this is a terrific 
place and women can lead meaningful lives and also produce the 
next generation of fighters, which is a duty for Islam as a 
religion, and for the caliphate itself.
    Unfortunately, the testimony of former slaves--so I am here 
thinking about someone called Nadia Murad, who is an amazing 
woman, a Yazidi who was enslaved and testified at the United 
Nations (U.N.) and also has given many interviews. If you 
listen to her, I mean, tears well up in your eyes. But it has 
had almost no effect, as far as I can tell, throughout the Arab 
world, because she is ``othered.'' She is seen as something 
outside of the community, and sometimes she is not even 
believed. They think that this is disinformation against the 
caliphate.
    Senator Ayotte. Thank you.
    Chairman Johnson. Thank you, Senator Ayotte.
    Let me quickly pick up on that point because it ties in--I 
have three questions left. Dr. Mirahmadi, you talked about the 
need for basically a reverse Wahhabism process or project. They 
are not believing--I have met with young Yazidi women as well, 
and you are right, the treatment of them is horrific. How far 
along in that reverse process are we? I think I know, but I 
want to hear it from you.
    Ms. Mirahmadi. Not very far along.
    Chairman Johnson. We are a long ways.
    Ms. Mirahmadi. We are long ways, but I think that it is to 
the point that Dr. Stern mentioned about not really believing 
what our problem is. We are just kind of throwing a lot of 
things at it and being, like, well, if we just do this, then it 
will go away, if we just do that, then it will go away. I have 
been doing this for 20 years. It is not going away.
    Chairman Johnson. No. This is a long-term process.
    Ms. Mirahmadi. Yes.
    Chairman Johnson. It is a tough, long slog.
    Ms. Mirahmadi. Right, exactly. And, also, we have to get 
over the issue of our trepidation in dealing with religion. So 
once we can overcome these two aspects and really confront what 
we are up against and then not be afraid of invoking religion 
when it could be helpful to our mutual causes, Muslim and non-
Muslim, a whole lot of other tools will open up to us.
    Chairman Johnson. Obviously, that was the purpose of this 
hearing, to lay out a reality. Even if we do not like it, we do 
not want to face it, it is the only way to solve a problem. 
First, define it properly and then admit that you have one.
    Dr. Haykel, can we just get back to some basics? Because I 
really think that this is very confusing to most Americans. Why 
do Sunnis want to kill Shia and vice versa? Can you just 
describe the Sunni-Shia split within Islam?
    Mr. Haykel. Well, it is a split that dates back 1,400 years 
to the time when, after the death of the Prophet, there was a 
difference of opinion over succession, over who was to succeed 
the Prophet. And the majority went one way and the minority 
went the other way. The majority are the Sunnis; the minority 
are the Shiites.
    Now, over time, this sectarian split--you can think of it 
as Catholic versus Protestant. It was not actually mobilized 
for military purposes or for sectarian wars. It is only evident 
historically, and today, when States, when governments, choose 
to use this form of identity, form of religious identity, for 
very specific purposes, typically geostrategic purposes and to 
achieve goals that States want to achieve. So you see the 
Saudis----
    Chairman Johnson. What was the first instance of States 
using this split to go to war with each other?
    Mr. Haykel. Well, the most prominent one in pre-modern 
times was when the Ottomans fought the Safavids. The Ottomans 
were based in Turkey, and the Safavids were based in Iran. And 
they used this difference in religion to fight one another. 
Today we see it in the fight between Saudi Arabia and Iran.
    But I think one has to dig deeper than just the sectarian--
I mean, the sectarian language gives cover for what is 
otherwise a battle over power.
    Chairman Johnson. And then even within the Shia-Sunni, 
there are factions within those groups as well, which is, 
again, even more confusing. Sunni governments obviously want to 
destroy ISIS because ISIS wants to destroy them. They are all 
basically kind of Sunni-based, correct?
    Mr. Haykel. That is correct. There are divisions within it, 
and my advice to the U.S. Government is not to enter into the 
fray of these sectarian wars, because we should not take sides, 
for one, and, two, I do not think, again, that we have standing 
to decide what is and what is not correct, Islamically. I think 
that we should be very hard-nosed about what our interests are 
and pursue those relentlessly.
    Chairman Johnson. And what are those interests then? Again, 
we want to defeat ISIS.
    Mr. Haykel. Right.
    Chairman Johnson. In order to do that, from my standpoint--
this is kind of my third question, too--we need to develop what 
I have been calling a ``committed coalition of the willing.'' I 
often use the model of the First Gulf War where literally our 
coalition partners supplied 240,000 troops to that effort, paid 
for about 85 percent of it. Now, that is a committed coalition 
of the willing. But today we need a committed coalition of 
Sunni Arab States, correct? Because of the history, because we 
bugged out, and because we have had some problems. Can you just 
describe the lack of confidence, from your perspective, of the 
Sunni States right now in American leadership and why they 
might be reluctant to join this coalition?
    Mr. Haykel. The principal reason that Sunni States are not 
fully joining this coalition is because they do not regard ISIS 
as the principal enemy that they are facing. So the Saudis, for 
instance, would think that Iran is much more dangerous. The 
Turks think that the Kurds are much more dangerous. And, 
frankly, Iran itself is playing a double game, in that it is 
both convenient for ISIS to exist there because it keeps the 
Sunni world in disarray, and it creates an enemy that is 
convenient for the Iranians, and it brings the West on to their 
side with Assad and to side with Iran.
    So, this is a part of the world where, what is really 
happening is not obvious, and one cannot have any illusions, 
because all of these States use forces, these forces like ISIS, 
for their own purposes.
    Chairman Johnson. So I would like to give you the 
opportunity to just go through that in a little greater detail, 
I guess starting with Iran, Saudi Arabia, and Turkey, and just 
really describing in detail what their aims are, who they are 
concerned about, who their true enemy is, and who their 
corollary enemy is because, again, it is incredibly complex. 
Can you just step through that again in greater detail?
    Mr. Haykel. Sure, and I will in a thumbnail----
    Chairman Johnson. Again, kind of talking about their 
strategic goals and aims.
    Mr. Haykel. The Saudis basically want to reverse Iranian 
influence throughout the Arab world. They consider Iran's 
projection of power, especially through non-State actors like 
Hezbollah and the militias of southern Iraq, to be 
unacceptable, and they want to roll it back because they want 
to dominate that region. They consider the region to be Arab, 
and they consider themselves to be the dominant power in that--
--
    Chairman Johnson. And what was their goal in terms of the 
Wahhabism schools and setting all of that up?
    Mr. Haykel. Actually, the Saudis were never involved in 
setting up Wahhabism is either Iraq or Syria, because the 
regimes in those two countries, authoritarian regimes, would 
not permit the Saudis to do this. So the conversion of the 
Sunnis of Syria and Iraq to Salafism is a very recent thing, 
and it is--I think that there are reasons for why they are 
doing this, why the Sunnis are becoming Salafists. I think that 
it has to do with power again.
    Chairman Johnson. So maybe not there, but they spread 
Wahhabism----
    Mr. Haykel. They spread Wahhabism throughout the world.
    Chairman Johnson. And their aim in doing that was what?
    Mr. Haykel. Well, actually, it was largely to fight against 
Communism, Arab socialism, and Arab nationalism. They were 
threatened by a form of politics that was deeply destabilizing 
to monarchical rule, so they spread an Islamic solidarity, 
Islamic identity movement and campaign, beginning in the early 
1960s, largely and often in coordination with us, actually.
    Chairman Johnson. So to really protect the House of Saud.
    Mr. Haykel. Correct.
    Chairman Johnson. OK. So there is encapsulated Saudi 
Arabia.
    Mr. Haykel. Yes.
    Chairman Johnson. Move on to Iran, then.
    Mr. Haykel. So Iran basically has yet to decide whether it 
is a normal country or a revolution, and inasmuch as the hard-
liners in Iran still believe in the revolution, they want to 
project the power of Iran, militarily, but also soft power, 
revolutionary power, through proxies, from the Palestinian 
territories all the way----
    Chairman Johnson. So describe that in detail, because 
everybody talks about how they are recognized as the largest 
State sponsor of terror. Describe that. Describe the groups 
that they are supporting and why they are doing it.
    Mr. Haykel. Right. So they support certain factions amongst 
the Palestinians. Hamas, for a while, was on their payroll, and 
there is another faction in Gaza that is with--Islamic jihad 
that is with Iran. In Lebanon, they have Hezbollah. They have a 
number of militias in southern Iraq. They support the Assad 
regime and also a number of militias that are fighting with the 
Assad regime.
    As far as the Middle East is concerned, by far, the most 
destabilizing country has been Iran. The Assad regime, for 
instance, which would not have survived without Iranian 
backing, has killed close to 300,000 people and has made 11 
million people displaced as refugees. So, ISIS actually pales 
in comparison with Iran, in terms of instability in the region.
    Chairman Johnson. What about Turkey?
    Mr. Haykel. Turkey is an interesting country inasmuch as it 
has been cut off from the Middle East for some 80 years, and it 
has rediscovered the Middle East and thought that it, as a 
successful country, could dominate it through soft power. 
Turkey has quickly realized that the Middle East is much more 
complicated, and they thought, I think, until recently, that 
ISIS could be contained. And then ISIS started a suicide 
bombing campaign against the Turks. So the pipeline of recruits 
has shut down as a result of this. But Turkey still remains in 
an old model of thinking about the world. For them, the Kurds 
remain the most dangerous element because they represent 20 
percent of the Turkish population and could potentially secede 
from the country.
    Chairman Johnson. Can you talk about the difference within 
the Kurdish population between those in Turkey, the Kurdistan 
Workers' Party (PKK), and the Iraqi Kurds?
    Mr. Haykel. I mean, there are differences certainly between 
them politically, but on the whole, I would think of the Kurds 
as an American--as natural allies for us, especially those in 
Syria and in Iraq. They are a long-suffering population. They 
have really suffered and have never had their own country. And 
you can think of them almost like Israel, as a group of people 
that will always be a natural ally of the United States in the 
region.
    Chairman Johnson. OK. Does anybody else want to feed into 
this line of questioning? Seeing Senator Booker has been 
faithful in sticking around, I will let you have a couple of 
extra questions as well. But does anybody else want to comment 
on this?
    [No response.]
    Senator Booker.
    Senator Booker. Thank you very much. I appreciate your 
patience and the indulgence of the Chairman.
    I just have really one last line of questioning, and it 
really goes to this experience that I had 2 weeks ago when I 
was in the Middle East--I was in Israel, Saudi Arabia, and 
Turkey--and sat down with Saudi Arabian leaders, many of them 
women and activists, and sat down with others in Turkey, from 
Erawan to just individuals I met on my way there. And I was 
sort of surprised at how much they were concerned that this 
Nation, America, was turning anti-Islamist. Do we hate Muslims? 
And I found myself having to explain that that was not our 
stance and actually get very strong in reasserting or 
reaffirming the pluralistic society in which we live, the 
loving and tolerant society in which we live.
    I guess my question for all of you is really, there seems 
to be this counterbacklash, as I try to observe it, over this 
alleged political correctness and how this country talks about 
Islam, about how this country talks about the terrorism that we 
are seeing. And I am wondering, basically, does language really 
matter and how we frame this to the rest of the world. Some of 
the comments that we have, some of the comments many people 
believe is demagoguery, is that hurting our ability--because I 
am about winning. Is it hurting our ability to deal with the 
ISIS threat and how we are characterizing it or how some of the 
characterizations have been out there. I think this is 
important coming from specialists like you, for me at least, to 
help understand American rhetoric and what we are seeing in the 
media by political candidates, as well as elected Senators. 
Anybody?
    Ms. Mirahmadi. Absolutely it does hurt. It does hurt our 
ability to win. And I think it is because----
    Senator Booker. So you are saying it hurts our ability to 
win in the battle against ISIS.
    Ms. Mirahmadi. Absolutely. Vilifying all of Islam and 
Muslims of course will hurt us. So talking about not letting 
Muslims into the country anymore or that Islam is the problem 
will alienate 1.2 billion people for sure.
    But that does not mean that we cannot have a rational and 
intelligent conversation about what the threat is. So if you 
had asked me 5 years ago, I would have told you that I 
advocated calling it ``radical Islamism,'' and I used the word 
``Islamism'' to make a distinction between that and mainstream 
Islam. The problem is that it has metastasized so badly with 
ISIS that there is only a sliver of theology left on top now, 
and there are all these other countercultural, anti-social 
components to what is radicalizing individuals.
    But at the end of the day, there is this kind of long-term 
problem with warped, deviant interpretations of Islam 
constantly being used to galvanize violence. And I think that 
there is something to be said for what are we going to do about 
that element of the problem. And I think that the President's 
call to the Muslim community, ``We ask you to stand up, we ask 
you to talk to your Imams, and to take responsibility,'' was 
very important, because there is a piece of this that belongs 
to the Muslim community. I have a number of theories on why it 
has taken so long to speak up against it, but the fact is that 
there is a piece of this that belongs to the community, and I 
think that we need to do that together. But that requires us 
having a rational conversation about the subject.
    Senator Booker. And so you said that you used to call it 
``radical Islamism.''
    Ms. Mirahmadi. Right.
    Senator Booker. What do you call it now?
    Ms. Mirahmadi. ``Violent extremism.''
    Senator Booker. ``Violent extremism.''
    Ms. Mirahmadi. I mean, for a number of reasons: one, 
because it is so politically incorrect to call it anything 
else, and----
    Senator Booker. But I am not worried about political 
correctness. I am worried about winning against ISIS. And so 
you are saying that it is not politically correct, but you are 
also saying that it is damaging, right?
    Ms. Mirahmadi. It is damaging because people do not like 
the association--Muslims do not like the association of Islam 
with this problem.
    Senator Booker. And so for that 27-year-old, it is 
alienating, it is further isolating, and in many ways adds to 
the climate in which people could be radicalized. Is that what 
you are saying?
    Ms. Mirahmadi. I do not know if that term does that to him.
    Senator Booker. Right.
    Ms. Mirahmadi. It is the feelings people have against Islam 
and Muslims. So I do not know if it is the term that would do 
it or just the way that our society is responding. So the 
bullying in schools, for example, a number of our clients, the 
young people who are the most vulnerable, are the ones that are 
getting constantly harassed in school, called ``towel head,'' 
``terrorist,'' or ``Osama.'' They are just maladapting. And so 
that is causing fissures in our communities across the country. 
There needs to be work done at the grassroots level, at the 
local level, to repair those fissures.
    Senator Booker. So seemingly innocent semantics coming from 
high-level leaders helps to drive intolerance? Is that----
    Ms. Mirahmadi. Well, if you talk about banning all Muslims, 
yes. There is a range, right? There is a difference between 
addressing radical Islamism as a component of the problem and 
banning all Muslims. There is a spectrum of terminology that 
could be used, but, a large representation of the Muslim 
community now do not like ``violent extremism'' either because 
they think that it is code for ``Muslim.''
    So I think that even though we try to avoid using certain 
terminology, we are still in the same place that we were before 
by fighting over terminology, rather than solving the problem.
    Senator Booker. Would anybody else like to offer thoughts 
on that?
    Ms. Stern. I think that it is important to remember that 
the primary victims of this ideology are Muslim, and I think 
that some of the primary victims are the mothers of the kids 
who are getting seduced, basically to commit suicide, in 
somebody else's losing war in another country. I think that 
hate speech right now is extremely dangerous, and I agree with 
you that certain political leaders who are indulging themselves 
in hate speech are really damaging our ability to fight this 
threat.
    Senator Booker. But do you think--you are not saying, 
obviously, that a term like ``radical Islam'' is hate speech. 
People using terminology like that, that is not problematic to 
you, right?
    Ms. Stern. Not for me. I mean, I think that the President's 
discomfort with calling this ``violent Islamist terrorism''--I 
understand why, but I do not agree. I mean, that is what it is. 
And the vast majority of Muslims do not agree with that 
ideology and are petrified--some parents are petrified that 
their kids might, in this process of growing up and of 
rebelling against their parents, be drawn to that ideology.
    Senator Booker. And so political leaders who say ``violent 
Islamic radicalism'' or ``violent Islamic extremism,'' that 
does no damage, in your opinion?
    Ms. Stern. That does not trouble me, but saying that we 
cannot allow Muslims to come into this country, that troubles 
me a lot.
    Senator Booker. Yes.
    Ms. Stern. Very dangerous.
    Senator Booker. Mr. Vidino, you seemed like you wanted to 
say something?
    Mr. Vidino. Just very briefly. I think that there are two 
levels of the conversation here. One is what public leaders 
say. I understand, to some degree, the trepidation when a 
President makes an address and the whole world is listening. I 
understand that there is a level of defensiveness, in Muslim 
communities and in allied countries, to any kind of statement 
that can, to some degree, associate Islam with violence. So the 
debate is much more open. When you go to Muslim majority 
countries, they talk about political Islam very freely among 
themselves.
    Senator Booker. Right.
    Mr. Vidino. But if somebody else that is non-Muslim, from 
outside, calls it ``political Islam,'' immediately you get a 
sense of defensiveness, which is completely understandable.
    Senator Booker. As a black guy----
    Mr. Vidino. What I am saying is that----
    Senator Booker [continuing]. I would not understand what 
you are talking about, words used by blacks that cannot be used 
by---- [Laughter.]
    Mr. Vidino. I guess to some degree. [Laughter.]
    Senator Booker. I would not understand.
    Mr. Vidino. What I am saying is also that there are two 
levels. So I understand why, at a level of the President or, 
anyways, elected leaders or political leaders in general, that 
there should be--people should be very careful about the terms 
that they use. Sometimes a little bit of carefulness is 
metastasized into a paralysis internally, where we do not talk 
about religion out of political correctness, and what could be, 
for example, debates within the administration and finding 
solutions, to some degree political correctness has blinded us, 
and we look at all other aspects which are indeed important and 
should be looked at, but we ignore the one that is religious.
    Senator Booker. That is a very good point.
    Mr. Vidino. Which is one of the components.
    Senator Booker. That is a very good point.
    Do you want to add anything to close it out at all? Being 
from Jersey, I would like for you to have the last word. 
[Laughter.]
    Mr. Haykel. Thank you. I definitely think that there is an 
Islamic genealogy to this group. The problem is that when you 
enter into the specifics, it gets very complicated, and for 
public discourse, it is better to be prudential and careful in 
how you use the term ``Islam.'' So I understand where the 
President is coming from. I do think, though, that an honest 
discussion about this problem has to involve how this group is 
using Islam for its purposes and where it is drawing its 
inspiration from.
    I would also like to end by saying that there are bound to 
be more attacks in the United States like the ones that we have 
seen already, unfortunately, and this is where we have to be 
super vigilant in how we respond, because the temptation will 
be to vilify the entire community of Muslims. And that is where 
I think that we have to not play into the narrative of ISIS, 
because that is exactly what they would want us to do.
    Senator Booker. Thank you for those wise words.
    Chairman Johnson. Thank you, Senator Booker.
    I will tell you, as a Protestant Lutheran, if there is a 
radical band of Lutherans committing terrorist attack after 
terrorist attack, I would call them, ``Lutheran terrorists,'' 
and I would denounce them, and I would renounce them. I think 
that is part of the problem. The truth is the truth, reality is 
reality, and this strain, which we will all admit is a small 
percentage, has to be defeated.
    So, again, I just want to thank Senator Booker----
    Senator Booker. Mr. Chairman, could we have a hearing on 
Lutheran terrorists, please? [Laughter.]
    Chairman Johnson. I am not aware that it is a problem. 
Prove to me that it is a problem, and we will have a hearing.
    Again, I just want to thank all of the witnesses and all of 
the Senators who came here. We had great attendance and 
excellent questions. I think that we did lay out some of the 
reality here. I think that we helped to further define the 
problem, and it is incredibly complex, and it is going to be a 
long-term project trying to solve it.
    With that, the hearing record will remain open for 15 days 
until February 4th at 5 p.m. for the submission of statements 
and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 12:03 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
